APPENDIX TABLE OF CONTENTS
Opinion of the Supreme Court of Texas
(December 12, 2018) ........................................... 1a
Mandate of the Supreme Court of Texas
(March 29, 2019) ............................................... 19a
Memorandum Opinion of the Court of Appeals of
Fifith District of Texas of Dallas
(August 30, 2016) ............................................. 21a
Dissenting Opinion of the Justice Schenck
(August 30, 2016) ............................................. 32a
Judgment of the Court of Appeals
(August 30, 2016) ............................................. 35a
Order Denying Respondents’ Joint Motion to
Compel Arbitration, Supplement to Joint
Motion to Compel Arbitration and Joint
Corrected Motion to Compel Arbitration &
Verified Motion to Abate Proceedings Pending
Arbitration (June 2, 2015)................................ 36a
Order Granting In Part And Denying In Part
Petitioner Rickey Newsome’s Motion for
Summary Judgment (May 28, 2015) ............... 38a
Corrected Order Approving Transfer Nunc Pro
Tunc (September 15, 2014) .............................. 43a
Order Approving Transfer
(October 23, 2013) ............................................ 56a

APPENDIX TABLE OF CONTENTS (Cont.)
Order of the Texas Supreme Court Denying
Motion for Rehearing (March 29, 2019) .......... 69a
Motion for Summary Judgment Relevant
Excerpts (April 28, 2015) ................................. 70a
Rickey Newsome’s First Amended Petition for
Bill of Review (March 2, 2015) ......................... 76a
Amended Application for Approval of a Transfer
(October 13, 2013) ............................................ 99a
Transfer Agreement (For Transfer of Structured
Payments) (September 24, 2013) ................... 108a
Relevant Statutes ................................................. 126a

App.1a
OPINION OF THE SUPREME COURT OF TEXAS
(DECEMBER 12, 2018)
IN THE SUPREME COURT OF TEXAS
________________________
RSL FUNDING, LLC AND RSL SPECIAL-IV
LIMITED PARTNERSHIP,

Petitioners,
v.
RICKEY NEWSOME,

Respondent.

________________________
No. 16-0998

On Petition for Review from the Court of Appeals
for the Fifth District of Texas
Before: John P. DEVINE, Justice
JUSTICE DEVINE delivered the opinion of the Court.
The Structured Settlement Protection Act requires
court approval to validate the transfer of a payee’s
structured-settlement-payment rights to another. TEX.
CIV. PRAC. & REM. CODE § 141.004. The court here
approved the transfer but did so in two different
orders, creating a dispute between the parties over
which order should control. One of the parties moved
to compel arbitration of this dispute and others under
an arbitration provision included in their transfer
agreement. The trial court denied the motion, and

App.2a
the court of appeals affirmed, concluding that the
dispute over which order controlled was not an arbitrable issue despite the existence of an arbitration
agreement that assigned issues of arbitrability to the
arbitrator. 559 S.W.3d 169, 175 (Tex. App.—Dallas
2016) (mem. op.). Because the parties agreed to have
the arbitrator decide issues of arbitrability, we conclude that the court of appeals erred in determining
that the dispute here was one that could not be arbitrated.
Accordingly, we reverse the court of appeals’
judgment and remand the case to the trial court with
instructions to grant the motion to compel arbitration.
I
Rickey Newsome settled a personal injury suit
several decades ago and has since received structured
settlement payments from Allstate Insurance Company.
RSL Funding and its related entities offer lump-sum
payments to purchase structured-settlement agreements from recipients like Newsome. Newsome
assigned 120 monthly payments of varying amounts to
RSL in exchange for a payment of $53,000. Their contract included a mandatory arbitration clause that
identified the Federal Arbitration Act as the controlling
law. The clause delegates to an arbitrator not only
contractual disputes but also whether a dispute is
arbitrable. The relevant part reads:
Disputes under this Agreement of any nature
whatsoever . . . shall be resolved through
demand by any interested party to arbitrate
the dispute. . . . The parties hereto agree
that the issue of arbitrability shall likewise
be decided by the arbitrator, and not by any

App.3a
other person. That is, the question of whether
a dispute itself is subject to arbitration shall
be decided solely by the arbitrator and not,
for example by any court.
Under the Structured Settlement Protection Act,
a court must approve a transfer of structured-settlement payments before the transfer is effective. TEX.
CIV. PRAC. & REM. CODE § 141.004. The court that
approves the transfer is the court of original jurisdiction that authorized the settlement. Id. § 141.002(2)(A).
But if the original court no longer has jurisdiction,
approval must be sought from a district court or
other designated court in the payee’s county. Id.
§ 141.002(2)(B). Because the original court signed the
judgment on the structured settlement decades before
this transfer, it no longer retained jurisdiction, and
so RSL petitioned a district court in Newsome’s resident
county to approve the agreement.
The district court signed an order approving the
transfer that included the requisite statutory findings.
See id. § 141.004 (stating the “express findings” the
court must make to approve the transfer). The order,
however, included an additional requirement in a
handwritten note by the judge that provided: “Transferee to pay Mr. Newsome the sum of $53,000 in 10
days from this order being signed or transferee will
be required to pay Mr. Newsome $106,000.” The
transferee did not pay the $53,000 within the allotted
ten days.
Seven months later, Newsome wrote a letter to
the judge complaining that he had not been paid. The
district court responded by ordering the parties to
mediation, which resulted in an agreed motion to
remove the ten-day payment penalty from the order

App.4a
approving the transfer. The court granted the motion
and issued a corrected order nunc pro tunc.
After several more months passed without payment, Newsome filed a new pleading in the district
court, titled “Original Petition for Bill of Review and
Application for Injunctive Relief.” This pleading
attacked both the original and nunc pro tunc approval
orders. Newsome argued the nunc pro tunc order was
void because it corrected a judicial error after the expiration of the court’s plenary power. He further
asserted that the court’s original transfer order therefore remained in full force and effect and subject to
enforcement. But Newsome also asked the district
court, in the alternative, to vacate the original approval
order, although he did not assert a basis for doing so
or specifically request that relief in the bill of review’s
prayer. A subsequent motion for summary judgment
elaborated on the basis for Newsome’s alternative
request, asserting that the original transfer order
should be vacated because RSL had not complied with
it. RSL responded that it had not yet paid Newsome
because of his refusal to accept the agreed purchase
price of $53,000 and his failure to cooperate in transferring the settlement payments to RSL. RSL moved
to compel arbitration of the dispute under the parties’
contract, while Newsome pursued his motion for
summary judgment.
The district court granted Newsome’s summary
judgment motion in part, declaring the nunc pro tunc
order void, but the court did not decide whether the
original transfer order should also be set aside.
Instead, the court reserved judgment on Newsome’s
alternative claim for future proceedings. The court
also denied RSL’s motion to compel arbitration.

App.5a
RSL took an interlocutory appeal from the district
court’s order denying arbitration. See TEX. CIV. PRAC.
& REM. CODE § 51.016 (authorizing interlocutory
appeal). In a divided decision, the court of appeals
affirmed the district court’s order, reasoning that
Newsome’s bill of review, which challenged the approval
orders’ validity, offered “nothing for an arbitrator to
determine” because approval of such transfers under
the Structured Settlement Protection Act was a “purely
judicial function.” 559 S.W.3d at 175. A dissenting
justice disagreed, arguing that the parties had agreed
to arbitrate all matters raised in Newsome’s bill of
review, including whether the nunc pro tunc order
was effective and whether the penalty added by the
trial court properly altered the parties’ transfer agreement. Id. at 176 (Schenck, J., dissenting).
RSL petitioned this Court to review the order
denying arbitration, and we granted its petition.
II
The U.S. Supreme Court has explained that there
are three types of disagreements in the arbitration
context: (1) the merits of the dispute; (2) whether the
merits are arbitrable; and (3) who decides the second
question. First Options of Chi., Inc. v. Kaplan, 514
U.S. 938, 942 (1995). The default rule for the third
question is that arbitrability is a threshold matter for
the court to decide. Forest Oil Corp. v. McAllen, 268
S.W.3d 51, 61 (Tex. 2008). But a contractual agreement
to submit the arbitrability question to an arbitrator
is valid and must be treated like any other arbitral
agreement. First Options, 514 U.S. at 943. Arbitration
clauses that assign gateway questions such as the
arbitrability of the dispute are an established feature

App.6a
of arbitration law. Rent-A-Ctr., W., Inc. v. Jackson,
561 U.S. 63, 68-69 (2010). This Court, too, has held
that courts must enforce a valid arbitration agreement
that places arbitrability with the arbitrator rather
than a court. Forest Oil, 268 S.W.3d at 61.
RSL contends that the court of appeals impermissibly decided arbitrability itself in the face of a
valid arbitration clause that explicitly assigns arbitrability disputes to the arbitrator. Newsome does
not challenge the validity or effect of the arbitration
clause itself. He contends that the arbitration clause
is inapplicable here because this dispute must be
decided by a court due to the bill of review and
Structured Settlement Protection Act context. He
also submits that under the Structured Settlement
Protection Act no binding agreement (including an
arbitration provision therein) exists until a court
resolves the present dispute regarding the validity of
the approving court’s order.
The dispute thus presents two legal questions
for us to decide. First, does an arbitral delegation
clause in a court-approved structured settlement
transfer agreement apply when the validity of the
approving court order is at issue? The court of appeals
held it does not. 559 S.W.3d at 175. Second, does a
dispute about the validity of approving court orders
under the Structured Settlement Protection Act affect
the existence of an enforceable arbitration agreement?
The court of appeals did not answer this question.
Our review of these legal determinations is, of course,
de novo. Forest Oil, 268 S.W.3d at 55 & n.9.

App.7a
III
We first consider the court of appeals’ conclusion
and Newsome’s arguments that the case should not
be sent to arbitration because of its unique circumstances–a bill of review attacking approving court
orders under the Structured Settlement Protection Act.
RSL argues that because the parties agreed to delegate
arbitrability to the arbitrator the weight of authority
required the dispute be sent to arbitration. We agree.
A
A valid arbitration agreement creates a strong
presumption in favor of arbitration. Rachal v. Reitz,
403 S.W.3d 840, 850 (Tex. 2013). Both Texas and federal
law require the enforcement of valid agreements to
arbitrate. 9 U.S.C. § 2; TEX. CIV. PRAC. & REM.
CODE § 171.021. Arbitrators are competent to decide
any legal or factual dispute the parties agree to arbitrate. 14 Penn Plaza LLC v. Pyett, 556 U.S. 247, 26869 (2009); Shearson/American Exp., Inc. v. McMahon,
482 U.S. 220, 232 (1987). Generally, a court may consider an arbitration agreement’s terms to determine
which issues must be arbitrated. Forest Oil, 268
S.W.3d at 61. But as parties have a right to contract
as they see fit, they may agree to arbitral delegation
clauses that send gateway issues such as arbitrability to the arbitrator. Rent-A-Ctr., 561 U.S. at 6870; Forest Oil, 268 S.W.3d at 61 & n.38. When faced
with such an agreement, courts have no discretion but
to compel arbitration unless the clause’s validity is
challenged on legal or public policy grounds. Forest
Oil, 268 S.W.3d at 61. So the proper procedure is for
a court to first determine if there is a binding arbitration agreement that delegates arbitrability to the

App.8a
arbitrator. If there is such an agreement, the court
must then compel arbitration so the arbitrator may
decide gateway issues the parties have agreed to
arbitrate. See id.
The court of appeals, however, did not limit its
inquiry to the existence of a valid arbitration agreement; it instead refused arbitration based on its own
determination of the arbitrability of the dispute. It
did this apparently because “the unique facts of this
case” permitted it to disregard the parties’ agreement. See 559 S.W.3d at 175.
Newsome defends the court of appeals’ decision,
contending that the court must decide the issues presented in his bill of review because the court has exclusive jurisdiction to hear this direct attack on its
prior final judgment. See Richards v. Comm’n for
Lawyer Discipline, 81 S.W.3d 506, 508 (Tex. App.—
Houston [1st Dist.] 2002, no pet.) (dismissing a bill of
review because it was not filed in the court that
rendered the judgment under attack). He further relies
on authorities explaining that a court’s subject matter
jurisdiction comes from operation of law and cannot
be created by consent. See Dubai Petroleum Co. v.
Kazi, 12 S.W.3d 71, 76 (Tex. 2000); Fed. Underwiters
Exch. v. Pugh, 174 S.W.2d 598, 600 (Tex. 1943). Combining these disparate authorities, Newsome concludes
that the district court’s jurisdiction is not only to the
exclusion of other courts, but also to the exclusion of
arbitration.
Unlike Richards, Newsome’s bill of review was
not filed in the wrong court, and none of Newsome’s
authorities concern arbitration or have any apparent
application here. That a court has jurisdiction over a
bill of review to the exclusion of all other courts does

App.9a
not speak to the issue of arbitrability. Arbitrators
derive their jurisdiction over disputes from parties’
consent and the law of contract. Volt Info. Scis., Inc.
v. Bd. of Trs. of Leland Stanford Jr. Univ., 489 U.S.
468, 479 (1989); Americo Life, Inc. v. Myer, 440 S.W.3d
18, 21 (Tex. 2014). The Federal Arbitration Act preempts any state law that would interfere with parties’
freedom to contract to arbitrate their disputes. Kindred
Nursing Ctrs. Ltd. P’ship v. Clark, 137 S. Ct. 1421,
1426 (2017); In re Olshan Found. Repair Co., 328
S.W.3d 883, 888 (Tex. 2010). Reading grants of exclusive jurisdiction over a matter to a court to
prohibit delegation of the matter to an arbitrator
misunderstands arbitration and the preemptive effect
of the Federal Arbitration Act.
Moreover, we have held that parties may contract
to arbitrate issues even when the law vests some related
exclusive power in a court. For example, in CVN Group,
Inc. v. Delgado the parties signed an expansive arbitration agreement as part of a contract for construction
of a home. 95 S.W.3d 234, 235 (Tex. 2002). After the
buyers breached the contract, an arbitrator awarded
the home builder damages and a mechanic’s lien on
the home. Id. The trial court refused to allow foreclosure
on the lien and the court of appeals affirmed, reasoning
the Constitution and Property Code’s requirement
that mechanic’s liens be foreclosed by judicial action
also required judicial review and approval of mechanic’s
liens. Id. at 236-37. We reversed, holding the arbitratorawarded lien could be enforced because it did not
contravene constitutional and statutory protections.
Id. at 239. The dissent reasoned the mechanic’s lien
statute’s requirement that “[a] mechanic’s lien may
be foreclosed only on judgment of a court” meant

App.10a
arbitrators could not decide disputes on underlying
issues involving a lien’s existence. Id. at 247-48
(Hankinson, J., dissenting). The Court disagreed, however, concluding this requirement did not prevent
arbitration of issues related to the existence of a
mechanic’s lien. See id. at 239-40.
Newsome’s argument echoes the dissent in CVN
Group. Newsome contends that because the Structured
Settlement Protection Act requires a court to approve
the transfer of structured-settlement-payment rights,
and because only the original court has jurisdiction
to decide a bill of review attacking its final approval
order, the issues raised in this context cannot be
decided by an arbitrator. But as with the mechanic’s
lien in CVN Group, we find no inconsistency here
between the statute’s requirement that courts approve
structured-settlement transfers and the arbitration
of issues related to that approved transfer. Just as in
CVN Group where the statute assigned foreclosure on
mechanic’s liens to a court, here the Legislature has
assigned approval of structured-settlement transfers
to the courts. TEX. CIV. PRAC. & REM. CODE
§ 141.004. As was the case with the mechanic’s liens
statute in CVN Group, the Structured Settlement
Protection Act does not speak to arbitration at all.
See id. §§ 141.001-007. While the statute requires a
court to approve a settlement-payment transfer, it is
silent as to who should decide disputes that arise
after such approval, including disputes that require
application of the court order itself. See id. In the
face of such silence, we must apply the general rule
that arbitrators are competent to decide any type of
dispute. See 14 Penn Plaza LLC v. Pyett, 556 U.S.
246, 268-69 (2009). Even if the statute prohibited

App.11a
arbitration of certain disputes that would arise from
the approval of structured-settlement transfers, the
Federal Arbitration Act would preempt such a restraint
on the freedom of contract in arbitration. See Olshan,
328 S.W.3d at 888.
Here, the courts below have not questioned the
validity of parties’ arbitration clause. We thus have
no choice but to send this dispute to arbitration for
the arbitrator to at least decide arbitrability. Accordingly, the court of appeals erred in affirming the trial
court’s refusal to compel arbitration on the grounds
that the dispute in this case was not arbitrable.
B
RSL urges us to go further and read the court of
appeals’ decision as applying the “wholly groundless”
exception and to explicitly reject such an exception in
Texas. The wholly groundless exception is a doctrine
applied by some federal appellate courts to deny
arbitration even in the face of an arbitral delegation
clause.1 Under the wholly groundless exception, the
court may decline to enforce an arbitral delegation
clause when no reasonable argument exists that the
parties intended the arbitration clause to apply to
the claim before it. Turi v. Main St. Adoption Servs.,
LLP, 633 F.3d 496, 507 (6th Cir. 2011). Here, the
court of appeals concluded that the dispute over the
1 The Fifth, Sixth and Federal Circuits apply the exception. See,
e.g., Douglas v. Regions Bank, 757 F.3d 460, 462 (5th Cir. 2014);
Turi v. Main St. Adoption Servs., LLP, 633 F.3d 496, 507 (6th
Cir. 2011); Qualcomm Inc. v. Nokia Corp., 466 F.3d 1366, 1371 (Fed.
Cir. 2006). The Tenth and Eleventh Circuits have explicitly rejected
it. Jones v. Waffle House, Inc., 866 F.3d 1257, 1269 (11th Cir. 2017);
Belnap v. Iasis Healthcare, 844 F.3d 1272, 1286 (10th Cir. 2017).

App.12a
validity of the court’s approval orders was “not relevant”
and “had no bearing” on the parties’ arbitrable disputes.
559 S.W.3d. at 175. RSL contends that this was in
effect an adoption of the wholly groundless exception.
But the court of appeals does not mention the
exception or discuss the federal cases that apply it.
Nor has Newsome asked us to adopt the exception or
any similar “relevance test” to deny enforcement of
an otherwise valid arbitration agreement. The court
of appeals did not refuse to enforce arbitration because
it thought there was no reasonable argument that the
arbitration agreement covered the parties’ dispute. It
refused to enforce arbitration because it decided this
case offered “nothing for an arbitrator to determine.”
Id. In other words, the court decided the nature of
the dispute made it non-arbitrable. It erred by skipping
the first step in which it should have considered
whether it could decide arbitrability in the face of the
arbitral delegation clause. This skipped step is where
the wholly groundless exception would come into play
if the court of appeals had intended to apply it. We
conclude the validity of a wholly groundless exception
or similar relevance test is not properly before us. We
need not go any further than to hold the court of
appeals erred by deciding arbitrability itself.
IV
Because it decided the case on arbitrability
grounds, the court of appeals did not address Newsome’s
arguments that the agreement and thus the arbitration
clause never came into effect or was unenforceable.
As explained above, this was error; the court should
have first decided whether a valid arbitration agreement exists. When presented with an issue the court

App.13a
of appeals could have but did not decide, we may
either remand the case or consider the issue ourselves.
TEX. R. APP. P. 53.4. We choose to decide this issue.
Newsome argues no enforceable arbitration agreement exists here because both of the district court’s
approval orders were void. In doing so, he relies on
two cases that hold structured-settlement-transfer
agreements are not validly formed or enforceable
without court approval. See Wash. Square Fin., LLC
v. RSL Funding, LLC, 418 S.W.3d 761, 770 (Tex.
App.—Houston [14th Dist.] 2013, pet. denied); In re
Rapid Settlements, Ltd., 202 S.W.3d 456, 461 (Tex.
App.—Beaumont 2006, orig. proceeding [mand. denied])
(per curiam). Under this logic, Newsome argues that he
cannot be compelled to arbitrate under the agreement either because the agreement never took effect
without a valid court order or because the agreement
cannot be enforced for some other reason such as
being contrary to public policy.
There are three distinct ways to challenge the
validity of an arbitration clause: (1) challenging the
validity of the contract as a whole; (2) challenging
the validity of the arbitration provision specifically;
and (3) challenging whether an agreement exists at
all. In re Morgan Stanley & Co., 293 S.W.3d 182, 187
(Tex. 2009). These distinctions arise from the U.S.
Supreme Court decision Prima Paint Corp. v. Flood
& Conkling Manufacturing Co., which held that arbitration clauses are separable from the contracts in
which they are embedded. 388 U.S. 395, 404 (1967).
Because an arbitration clause is separable from the
rest of the contract, the arbitrator decides the first
type of challenge. Rent-A-Ctr., W., Inc. v. Jackson,
561 U.S. 63, 70 (citing Prima Paint, 388 U.S. at 403-

App.14a
04). Classic contract defenses such as unconscionability,
illegality and fraudulent inducement fall under this
first type of challenge; the arbitrator decides them if
they are alleged only against the contract as a whole.
E.g., id. at 66 (unconscionability); Buckeye Check
Cashing, Inc. v. Cardegna, 546 U.S. 440, 443 (illegality);
Prima Paint, 338 U.S. at 402-04 (fraudulent inducement). But Prima Paint does not encompass contractformation challenges. Morgan Stanley, 293 S.W.3d at
187-88 & nn. 5-6. Contract formation defenses—such
as whether a party ever signed a contract, whether a
signor had authority to bind a principal, or whether
the signor had capacity to assent—are thus threshold
issues to be decided by the court. Id. at 189. This is
because the Federal Arbitration Act requires a court
to be “satisfied that the making of the agreement for
arbitration . . . is not in issue” before compelling arbitration. 9 U.S.C. § 4. The Texas Arbitration Act, too,
requires that the existence of an agreement to arbitrate be proven to the court before the court must
compel arbitration. TEX. CIV. PRAC. & REM. CODE
§ 171.021(b).
Here, Newsome does not challenge the arbitration
clause specifically. Rather, he contends that no enforceable arbitration agreement exists because the entire
transfer agreement never came into existence or is
not enforceable. Under the Structured Settlement
Protection Act, “[n]o direct or indirect transfer of
structured settlement payment rights shall be effective
. . . unless the transfer has been approved in advance
in a final court order” based on specified express
findings. TEX. CIV. PRAC. & REM. CODE § 141.004.
Assuming for the sake of argument that this provision
requires the court to approve the parties’ contract

App.15a
and not merely the structured-settlement-payment
transfer, the effect of this provision on the arbitration
clause depends on whether the challenge is to the
contract’s enforceability or its existence. Newsome
cites cases that discuss the statute’s effect on both
the structured-settlement-transfer agreement’s existence and its enforceability. See, e.g., Wash. Square,
418 S.W.3d at 770 (enforceability); Rapid Settlements, 202 S.W.3d at 461 (formation).
For example, in Washington Square, the court of
appeals held that contracts to transfer structuredsettlement-payment rights are unenforceable as
contrary to public policy unless court-approved. 418
S.W.3d at 770. The court, however, did not decide
whether court approval is a condition precedent to
the formation of the contract. Id. at 771 & n.8. The
case did not involve a motion to compel arbitration;
the issue was whether an unapproved contract could
support a tortious-interference claim. Id. at 770-71.
Washington Square is not helpful here because the
court did not consider whether the lack of court
approval rendered the transfer agreement a nullity.
In the arbitration context, the Prima Paint
separability doctrine provides that the arbitrator is
to decide any challenge to the enforceability of an existing contract. 388 U.S. at 404. Any contract defense
that attacks the contract as a whole but does not go
to the issue of contract formation must be decided by
the arbitrator. See, e.g., Rent-A-Ctr., 561 U.S. at 66
(unconscionability); Buckeye, 546 U.S. at 443 (illegality); Prima Paint, 338 U.S. at 402-04 (fraudulent
inducement). Voidness on public policy grounds as in
Washington Square may provide a basis for revoking
an existing contract but does not mean the agreement

App.16a
never formed in the first place. See In re Poly-America,
L.P., 262 S.W.3d 337, 348 (Tex. 2008) (orig. proceeding).
Because voidness on public policy grounds, like illegality, is a defense to the contract’s enforcement, it
falls into the category that the Prima Paint line of
cases delegates to the arbitrator. See Buckeye, 456
U.S. at 446. Consequently, when a party resisting
arbitration argues the whole contract is void for
violation of public policy, the arbitrator, not a court,
decides the issue. We thus cannot decide here whether
a transfer agreement lacking court approval under
section 141.004 is void on public policy grounds or
unenforceable for any other reason that does not go to
contract formation because the doctrine of separability
reserves such decisions for the arbitrator.
Newsome, however, also argues that section
141.004 of the Structured Settlement Protection Act
creates a condition precedent to contract formation.
That indeed was the holding of a court of appeals
in another case Newsome cites. See Rapid Settlements, 202 S.W.3d at 461. Assuming that holding to be
correct, a court would have an opportunity to decide
at the outset whether a valid court order approved a
structured-settlement-transfer agreement because the
existence of the court order goes to contract formation,
which the court decides before compelling arbitration.
See Morgan Stanley, 293 S.W.3d at 187. Whether we
may decide in this appeal if court approval is an
issue of the underlying contract’s formation depends
on whether Newsome properly raised that issue below.
The primary thrust of Newsome’s bill of review was
for the trial court to declare the nunc pro tunc order
void so Newsome could enforce the original approval
order. Because Newsome’s bill of review pleads that

App.17a
the approval order is valid and created an enforceable
contract, the possible voidness of the nunc pro tunc
order does not affect the existence of the agreement
to arbitrate. The contract containing the agreement
to arbitrate exists even if a question exists about
whether the nunc pro tunc order corrected only a
clerical error. Newsome seeks to enforce a contract
approved by a court that contains an arbitration
agreement and thereby concedes the existence of the
agreement to arbitrate.
But Newsome’s bill of review contains an “alternative” allegation that both the nunc pro tunc order
and the original approval order are void, and Newsome mentions that possibility again in his appellate
briefing without explanation. In fact, Newsome has no
theory to support his conclusory attack on the original
order. He did not even raise the issue in his trial
court brief opposing RSL’s motion to compel arbitration. Indeed, Newsome’s petition for bill of review
barely mentions the possibility, and his briefing in
this Court is no better. A brief must provide citations
or argument and analysis for the contentions and
failure to do this can result in waiver. TEX. R. APP.
P. 38.1(i), 38.2(a)(1); Ross v. St. Luke’s Episcopal Hosp.,
462 S.W.3d 496, 500 (Tex. 2015). Newsome has failed
to present any theory, analysis, or authority that
puts the validity of the original approval order and
thus formation of the contract to arbitrate in issue,
and we conclude that the doctrine of separability
reserves to the arbitrator all other questions raised
in the district court. The court of appeals therefore
erred in affirming the trial court’s order denying
arbitration.
*****

App.18a
Having found the court of appeals erred and no
merit in Newsome’s alternative grounds to affirm, we
reverse the court of appeals’ judgment and remand
the case to the trial court with instructions to grant
the motion to compel arbitration.
John P. Devine
Justice
Opinion Delivered: December 21, 2018

App.19a
MANDATE OF THE SUPREME COURT OF TEXAS
(MARCH 29, 2019)
IN THE SUPREME COURT OF TEXAS
________________________
RSL FUNDING, LLC AND RSL SPECIAL-IV
LIMITED PARTNERSHIP,

Petitioners,
v.
RICKEY NEWSOME,

Respondent.

________________________
No. 16-0998

To the Trial Court of Dallas County, Greetings:
Before our Supreme Court on December 21, 2018,
the Cause, upon petition for review, to revise or
reverse your Judgment.
No. 16-0998 in the Supreme Court of Texas
No. 05-15-00718-CV in the Fifth Court of Appeals
No. DC-14-14580-L in the 193rd District Court of
Dallas County, Texas, was determined; and therein
our said Supreme Court entered its judgment or order
in these words:
THE SUPREME COURT OF TEXAS, having
heard this cause on petition for review from the Court
of Appeals for the Fifth District, and having considered

App.20a
the appellate record, briefs, and counsels’ argument,
concludes that the court of appeals’ judgment should
be reversed.
IT IS THEREFORE ORDERED, in accordance
with the Court’s opinion, that:
1)

The court of appeals’ judgment is reversed;

2)

The cause is remanded to the trial court for
further proceedings consistent with this
Court’s opinion; and

3)

Petitioners RSL Funding, et al. shall recover,
and Respondent Rickey Newsome shall pay,
the costs incurred in this Court and in the
court of appeals.

Copies of the Court’s judgment and opinion are
certified to the Court of Appeals for the Fifth District
and to the District Court of Dallas County, Texas, for
observance.
Wherefore we command you to observe the order
of our said Supreme Court in this behalf, and in all
things to have recognized, obeyed, and executed.
BY ORDER OF THE SUPREME COURT OF THE
STATE OF TEXAS,
with the seal thereof annexed,
at the City of Austin, this the
29th day of March, 2019.
/s/ Blake A. Hawthorne
Clerk
By Monica Zamarripa
Deputy Clerk

App.21a
MEMORANDUM OPINION
OF THE COURT OF APPEALS OF
FIFITH DISTRICT OF TEXAS OF DALLAS
(AUGUST 30, 2016)
IN THE COURT OF APPEALS FIFTH DISTRICT
OF TEXAS AT DALLAS
________________________
RSL FUNDING, LLC AND RSL SPECIAL-IV
LIMITED PARTNERSHIP,

Appellants,
v.
RICKEY NEWSOME,

Appellee.

________________________
No. 05-15-00718-CV

On Appeal from the 193rd Judicial District Court
Dallas County, Texas
Trial Court Cause No. DC-14-14580-L
Before: LANG-MIERS, BROWN, and SCHENCK,
Justices
In this interlocutory appeal, RSL Funding, LLC
and RSL Special-IV, Limited Partnership (collectively
RSL) appeal the trial court’s orders denying their
motions to compel arbitration and granting a temporary
restraining order (TRO). In two issues, RSL contends
the trial court abused its discretion by refusing to

App.22a
compel arbitration and by granting the TRO. We affirm
the trial court’s orders.
Legal and Factual Background
In 1985, appellee Rickey Newsome settled a personal injury claim. Pursuant to the terms of a
structured settlement agreement, Newsome was entitled to receive monthly payments from Allstate
Insurance Company beginning in September 1986 for
the duration of his life. Allstate purchased an annuity
from Allstate Life Insurance Company to fund the
payments. In September 2013, RSL and Newsome
entered into a Transfer Agreement under which Newsome agreed to transfer and assign portions of his
future periodic payments to RSL in exchange for a
lump-sum payment of $53,000. The Transfer Agreement contained an arbitration clause providing that
“[d]isputes under this Agreement of any nature whatsoever . . . shall be resolved through demand by any
interested party to arbitrate the dispute.” The agreement further stated, “[T]he question of whether a dispute itself is subject to arbitration shall be decided
solely by the arbitrator and not, for example by any
court.” A promissory note signed by Newsome also
contained an arbitration clause.
In the trial court, RSL filed an application for
approval of the transfer, as required by the Texas
Structured Settlement Protection Act (SSPA). See TEX.
CIV. PRAC. & REM. CODE ANN. § 141.006 (West
2011). The purpose of the SSPA is to protect recipients
of structured settlement payments who are in need of
cash from exploitation by “factoring companies,”
companies that purchase structured settlements from
personal injury victims by paying immediate cash for

App.23a
the right to future payments. Johnson v. Structured
Asset Servs., LLC, 148 S.W.3d 711, 729 (Tex. App.—
Dallas 2004, no pet.). The SSPA requires disclosures
and court approval before any transfer of structured
settlement payment rights. Id.; Transamerica Occidental Life Ins. Co. v. Rapid Settlements, Ltd., 284
S.W.3d 385, 392 (Tex. App.—Houston [1st Dist.]
2008, no pet.); see TEX. CIV. PRAC. & REM. CODE
ANN. § 141.003. No transfer of structured settlement
payment rights shall be effective and no structured
settlement obligor or annuity issuer shall be required
to make any payment directly or indirectly to any
transferee unless the transfer has been approved in
advance in a final court order based on express findings
that (1) the transfer is in the best interest of the
payee; (2) the payee has been advised in writing to
seek independent professional advice regarding the
transfer and has either received the advice or knowingly
waived it in writing; and (3) the transfer does not
contravene any applicable statute or an order of any
court or governmental authority. TEX. CIV. PRAC. &
REM. CODE ANN. § 141.004; see Washington Square
Fin., LLC v. RSL Funding, LLC, 418 S.W.3d 761, 76970 (Tex. App.—Houston [14th Dist.] 2013, pet. denied).
On October 23, 2013, the trial court signed an order
approving the transfer. Among other things, the order
recited that the transfer was in Newsome’s best
interest, RSL had provided Newsome with a disclosure
statement required by the SSPA, and Newsome had
been advised in writing to seek independent professional advice regarding the proposed transfer and
had either received the advice or knowingly waived it.
The order included the following handwritten note:
“Transferee to pay Mr. Newsome the sum of $53,000

App.24a
in 10 days from this order being signed or transferee
will be required to pay Mr. Newsome $106,000.” Neither
party made any complaint at that time to the trial
court that the handwritten terms improperly modified
their agreement.
In May 2014, the trial court received a pro se
letter from Newsome indicating RSL had failed to pay
him for the transfer. The court ordered RSL to appear
to determine whether a subsequent contempt hearing
should occur. At a June 2014 hearing, counsel for
RSL represented Newsome had made prior transfers of
portions of his annuity to other parties and that
Allstate could not be required to split payments.
Counsel represented that RSL had not paid Newsome
because it had been working with Allstate and the
other parties to ensure that RSL would get the money
it bought. The trial court ordered the parties to
mediation.
In August 2014, RSL filed an agreed motion for
entry of a corrected order nunc pro tunc. RSL asserted
that the handwritten language in the court’s October
2013 order approving the transfer modified the parties’
Transfer Agreement without their consent. The motion
further asserted that the parties sought entry of a
corrected order to remove the handwritten language,
which had required RSL to pay Newsome $106,000
instead of $53,000 if it did not pay him in ten days.
Newsome himself signed the agreed motion. On
September 15, 2014, the trial court signed a corrected
order approving the transfer nunc pro tunc that omitted
the handwritten language found in its earlier order.
In December 2014, Newsome filed a petition for bill
of review and application for injunctive relief in the
trial court. By way of bill of review, Newsome sought

App.25a
to set aside the court’s nunc pro tunc order. He asserted
that the nunc pro tunc order was void because the
court improperly corrected a judicial error, as opposed
to a clerical error, after its plenary power had expired.
He asked the trial court to vacate the nunc pro tunc
order and confirm that the original order approving
the transfer is the final judgment. As an alternative,
Newsome asked the trial court to set aside both the
original order approving the transfer and the nunc
pro tunc order and confirm that none of Newsome’s
annuity payments were transferred to RSL. Newsome
further alleged that RSL was liable for his attorney’s
fees incurred as a result of the bill of review.
Newsome’s petition for bill of review also contained
allegations that RSL had still not paid him despite
the fact that RSL was being paid the portion of his
monthly annuity he had transferred to it. He asserted
RSL had filed a suit against him in Harris County
seeking declaratory relief and attached a copy of
RSL’s Harris County petition. In it, RSL alleged that
a dispute had arisen regarding the amount to be paid
to RSL under the parties’ contract for the transfer of
settlement payments. RSL asserted it had filed a
demand for arbitration in Houston and sought a
declaration that the parties had a valid arbitration
agreement and that the pending dispute was subject
to the arbitration agreement. In his petition, Newsome
sought a temporary injunction prohibiting RSL from
taking any action in the Harris County lawsuit, which
the trial court granted.
Newsome amended his petition for bill of review
in March 2015. The amended petition sought the same
relief as the original petition, but no longer contained
the request for injunctive relief. After Newsome

App.26a
amended his petition, RSL filed a motion to compel
arbitration under the Federal Arbitration Act and to
abate the proceedings pending arbitration. RSL
asserted that a dispute had arisen under the parties’
written agreement that contained an arbitration clause.
RSL alleged Newsome refused to execute a necessary
stipulation and refused to accept the amounts set out
in the Transfer Agreement. RSL also noted that
Newsome claimed he signed the agreed motion for entry
of the corrected order nunc pro tunc under duress
and detrimentally relied on RSL’s promises to pay
him. RSL disputed Newsome’s claims of duress and
detrimental reliance and thus asserted that these
issues should be submitted to arbitration. In its
motion, RSL also asserted that an arbitrator should
determine whether Newsome had met the three
prerequisites for a bill of review.
RSL later filed a supplement to its motion to
compel arbitration in which it asked the court, in the
event it denied the motion to compel, to stay the
proceedings pending an appeal to this Court. After a
hearing, on May 28, 2015, the trial court denied RSL’s
motion to compel arbitration and also denied RSL’s
request to stay the proceedings.
That same day, the trial court granted in part
and denied in part a motion for summary judgment filed
by Newsome. The court ruled that summary judgment
was proper on Newsome’s claim that the corrected order
approving the transfer nunc pro tunc should be vacated.
The court denied summary judgment on Newsome’s
alternative request to vacate the original transfer
order and his claim for attorney’s fees. The court
vacated its nunc pro tunc order and ruled that it was
void when entered.

App.27a
A few days later, RSL filed a corrected motion to
compel arbitration. In its brief, RSL states it filed the
corrected motion to attach the most recent version of
the Transfer Agreement. In an order signed June 2,
2015, the trial court denied RSL’s original motion to
compel arbitration, its supplemental motion, and its
corrected motion. The court again denied RSL’s request to stay the proceeding pending appeal.
Also on June 2, 2015, Newsome filed an application
for injunctive relief. He asked the court to enter a
TRO and temporary injunction ordering RSL to remit
the monthly assigned payments to him until resolution
of the litigation and sought $8,000 for the monthly
payments RSL had already received. That same day,
the trial court granted a TRO and ordered RSL to pay
Newsome the amount of all the assigned payments it
had received from February 2014 to the present as
well as any future payments. The court set a temporary
injunction hearing for June 11, 2015. Before the hearing
date, on June 8, 2015, RSL filed its notice of interlocutory appeal from the court’s May 28 and June 2,
2015 orders denying RSL’s motions to compel arbitration and the June 2, 2015 TRO. This Court stayed
the trial court proceedings pending further order from
this Court.
Motion to Compel Arbitration
In its first issue, RSL contends the trial court
abused its discretion in denying RSL’s motions to
compel arbitration. RSL maintains it met its threshold
burden to prove a valid arbitration agreement existed
in the Transfer Agreement. It asserts the parties
agreed to arbitrate arbitrability and only the arbitrator

App.28a
could decide if RSL presented a valid claim for
arbitration.
We review an order denying a motion to compel
arbitration under an abuse of discretion standard.

Bonded Builders Home Warranty Ass’n of Tex., Inc.
v. Smith, 488 S.W.3d 468, 476 (Tex. App.—Dallas 2016,
no pet.). We defer to the trial court’s factual determinations if they are supported by the evidence, but
we review the trial court’s legal determinations de
novo. Id.

Generally, a party seeking to compel arbitration
under the Federal Arbitration Act must establish (1)
the existence of a valid, enforceable arbitration agreement and (2) that the claims at issue fall within that
agreement’s scope. Id. A court has no discretion and
must compel arbitration if these two requirements are
met. Id.
In its motions to compel, RSL contended that
various disputes existed under the Transfer Agreement
which were subject to arbitration. Its real complaint
seems to be that the trial court did not have the
authority to modify the parties’ Transfer Agreement.
RSL refers to several disputes, including whether it
owes Newsome $53,000 or $106,000 and when it must
pay him, whether Newsome breached the parties’
contract, and whether he was under duress when he
signed the agreed motion to correct the nunc pro tunc
and detrimentally relied on RSL’s promises. In his
petition for bill of review, Newsome primarily sought
relief on grounds that the trial court’s nunc pro tunc
order was void because it was signed after the court’s
plenary power had expired. None of the alleged disputes
RSL contends require arbitration is relevant to the
issue of whether the court corrected a clerical error

App.29a
or a judicial error when it signed its nunc pro tunc
order. See Tex. Dep’t of Transp. v. A.P.I. Pipe &
Supply, LLC, 397 S.W.3d 162, 167 (Tex. 2013) (judgment nunc pro tunc can correct clerical error in
original judgment, but not judicial error).
RSL also contends the elements of a bill of review
— a meritorious defense or ground for appeal, which
Newsome was unable to present due to RSL’s fraud,
accident, or wrongful act, unmixed with any fault or
negligence on Newsome’s part—are fact issues that
should be decided by an arbitrator. But Newsome was
using the bill of review to attack an allegedly void
judgment, not to establish that he had a meritorious
defense he was unable to present. A claim that a judgment is void because the trial court lacked jurisdictional power to render it constitutes a collateral attack
on the underlying judgment. Walker v. Walker, No.
05-13-00481-CV, 2014 WL 4294967, at *2 (Tex. App.
—Dallas Aug. 21, 2014, no pet.) (mem. op.). When a
petitioner uses a bill of review to collaterally attack a
judgment on grounds it is void because the court
lacked jurisdiction, it is not required to prove the
three elements of a bill of review. Id.; see Middleton
v. Murff, 689 S.W.2d 212, 213 (Tex. 1985). Thus, these
issues were also not relevant to the relief Newsome
sought.
As alternative relief, Newsome asked the trial
court to vacate both the nunc pro tunc order and the
original order approving the transfer and confirm
that none of the annuity payments were ever properly
transferred to RSL. The legal basis on which Newsome
contends in the alternative that the original transfer
order should be vacated is unclear. If there is a legal
basis for vacating the court’s transfer orders, these

App.30a
issues are purely for the trial court to decide. Under
the SSPA, a court had to be involved in the process of
approving the parties’ Transfer Agreement. The agreement was not effective without the trial court’s
approval. See TEX. CIV. PRAC. & REM. CODE ANN.
§ 141.004. An arbitrator has no role in determining
whether to, or the terms on which to, approve a transfer
agreement. See id. § 141.002(2) (defining “court” as
used in SSPA).
We recognize that the arbitration provision in
the Transfer Agreement is broad in scope. We further
recognize that once a valid arbitration agreement is
established, there is a strong presumption favoring
arbitration and we resolve doubts as to the agreement’s
scope in favor of arbitration. See Rachal v. Reitz, 403
S.W.3d 840, 850 (Tex. 2013). Under the unique facts
of this case, however, we conclude there was nothing
for an arbitrator to determine. The disputes asserted
by RSL in its motions to compel had no bearing on
Newsome’s claim that the nunc pro tunc order was void.
Further, the alternative relief Newsome sought from
the trial court was in the province of the trial court
under the SSPA, not an arbitrator. Approving transfers
of structured settlement payment rights is a purely
judicial function. We conclude the trial court did not
abuse its discretion in denying RSL’s motions to compel
arbitration. We overrule RSL’s first issue.
Temporary Restraining Order
In its second issue, RSL contends the trial court
abused its discretion in granting the TRO. A trial
court’s ruling on a TRO is generally not appealable.
In re Tex. Nat. Res. Conservation Comm’n, 85 S.W.3d
201, 205 (Tex. 2002). RSL maintains the TRO was

App.31a
essentially a temporary injunction because it altered,
rather than preserved, the status quo. See TEX. CIV.
PRAC. & REM. CODE ANN. § 51.014(a)(4) (West Supp.
2015) (person may appeal interlocutory order that
grants temporary injunction). But at oral argument,
Newsome represented, without contradiction, that no
payments were made pursuant to the TRO. The TRO
was signed on June 2, 2015, and expired fourteen days
from that date. See TEX. R. CIV. P. 680. Accordingly,
this issue is moot. We overrule RSL’s second issue.
We affirm the trial court’s orders.
/Ada Brown/
Ada Brown
Justice

App.32a
DISSENTING OPINION
OF THE JUSTICE SCHENCK
(AUGUST 30, 2016)
IN THE COURT OF APPEALS FIFTH DISTRICT
OF TEXAS AT DALLAS
________________________
RSL FUNDING, LLC AND RSL SPECIAL-IV
LIMITED PARTNERSHIP,

Appellants,
v.
RICKEY NEWSOME,

Appellee.

________________________
No. 05-15-00718-CV

On Appeal from the 193rd Judicial District Court
Dallas County, Texas
Trial Court Cause No. DC-14-14580-L
Before: LANG-MIERS, BROWN, and SCHENCK,
Justices
I commend the majority for its fine opinion. I
regret that I am unable to join it in full. The approved
transfer agreement includes an arbitration clause
which states:
Disputes under this Agreement of any nature
whatsoever including but not limited to
those sounding in constitutional, statutory,

App.33a
or common law theories as to the performance of any obligations, the satisfaction
of any rights, and/or the enforceability hereof,
including any claims that the Assignor has
breached this Agreement, shall be resolved
through demand by any interested party to
arbitrate the dispute under the laws of
Assignee’s domicile to the maximum extent
possible (including the Federal Arbitration
Act which shall be controlling) . . . . The parties
hereto agree that the issue of arbitrability
shall likewise be decided by the arbitrator,
and not by any other person. That is, the
question of whether a dispute itself is subject to arbitration shall be decided solely by
the arbitrator and not, for example, by any
court. In so doing the intent of the parties is
to divest any and all courts of jurisdiction in
disputes involving the parties, except for the
confirmation of the award and enforcement
thereof.
The United States Supreme Court has been very
clear in stating that disputes, be they factual or legal
in nature, arising out of contracts containing an
arbitration provision are to be decided by an arbitrator,
not a court. 14 Penn Plaza LLC v. Pyett, 556 U.S.
247, 268-69 (2009). This is especially true when, as
here, the parties have committed to arbitrate the
question of arbitrability. First Options of Chi., Inc. v.
Kaplan, 514 U.S. 938, 944 (1995).
To be sure, we have not previously addressed the
question of whether parties might validly agree to
arbitrate a legal dispute over the effect of a prior
court order. In applying the Federal Arbitration Act,

App.34a
however, the Supreme Court has stressed that legal
disputes of all kinds are within the presumed competence of an arbitrator and should be so decided where
the parties have contracted to avoid a judicial disposition. See Pyett, 556 U.S. at 268-69; see also
Rodriguez de Quijas v. Shearson/Am. Express, Inc.,
490 U.S. 477, 481 (1989).
The parties’ arguments here concerning whether
the nunc pro tunc order is effective and whether the
trial court’s additional payment term properly altered
their transfer agreement can be made to an arbitrator
just as well as a court. Likewise, any claim Newsome
may have as to the delay and receipt of beneficial
payments under the transfer agreement may also be
raised before an arbitrator. As all of these claims
arise either directly from the agreement or from their
dispute over its proper reach, I would leave them to
their commitment to arbitrate those questions alongside
any dispute over the proper reach of the arbitration
clause. Continuum Health Serv., LLC v. Cross, No.
05-11-01520-CV, 2012 WL 5845367, at *1 (Tex. App.—
Dallas Nov. 19, 2012, no pet.) (mem. op.); Roe v.
Ladymon, 318 S.W.3d 502, 512-14 (Tex. App.—Dallas
2010, no pet.).
/David J. Schenck/
David J. Schenck
Justice

App.35a
JUDGMENT OF THE COURT OF APPEALS
(AUGUST 30, 2016)
IN THE COURT OF APPEALS FIFTH DISTRICT
OF TEXAS AT DALLAS
________________________
RSL FUNDING, LLC AND RSL SPECIAL-IV
LIMITED PARTNERSHIP,

Appellants,
v.
RICKEY NEWSOME,

Appellee.

________________________
No. 05-15-00718-CV

On Appeal from the 193rd Judicial District Court
Dallas County, Texas
Trial Court Cause No. DC-14-14580-L
Before: LANG-MIERS, BROWN, and SCHENCK,
Justices
In accordance with this Court’s opinion of this
date, the orders of the trial court are AFFIRMED.
It is ORDERED that appellee Rickey Newsome
recover his costs of this appeal from appellants RSL
Funding, LLC and RSL Special-IV, Limited Partnership.
Judgment entered this 30th day of August, 2016.

App.36a
ORDER DENYING RESPONDENTS’
JOINT MOTION TO COMPEL ARBITRATION,
SUPPLEMENT TO JOINT MOTION TO COMPEL
ARBITRATION AND JOINT CORRECTED
MOTION TO COMPEL ARBITRATION &
VERIFIED MOTION TO ABATE PROCEEDINGS
PENDING ARBITRATION
(JUNE 2, 2015)
IN THE DISTRICT COURT 193RD JUDICIAL
DISTRICT OF DALLAS COUNTY, TEXAS
________________________
IN THE MATTER OF:
A TRANSFER OF STRUCTURED SETTLEMENT
PAYMENT RIGHTS BY RICKEY NEWSOME
________________________
Cause No. DC-14-14580-L
Came on for consideration the Joint Motion to
Compel Arbitration filed by Respondents RSL Funding,
LLC and RSL Special-IV, Limited Partnership (the
“Motion to Compel”) on April 4, 2015, Respondent’s
Supplement to Joint Motion to Compel Arbitration
and Verified Motion to Abate Proceedings Pending
Arbitration (the “Supplemental Motion”) filed on May
5, 2015, and Respondents’ Joint Corrected Motion to
Compel Arbitration & Verified Motion to Abate
Proceedings Pending Arbitration filed on May 29,
2015 (“Corrected Motion”) (collectively, all three will
be regarded as the “Motion to Compel Arbitration”).

App.37a
The Court, having considered the Motion to
Compel Arbitration and the responses and opposition
thereto filed by Petitioner Rickey Newsome
(“Newsome”), finds that the Motion to Compel
Arbitration filed by Respondents RSL Funding, LLC
and RSL Special-IV, Limited Partnership (collectively, “Respondents”) should be denied.
IT IS THEREFORE ORDERED, ADJUDGED and
DECREED that Respondents’ Motion to Compel,
Supplemental Motion and the Corrected Motion are
DENIED in their entirety.
In the Supplemental Motion and in the Corrected Motion, Respondents have requested that the
Court stay the proceedings in this matter if the Court
were to deny the Motion to Compel/Supplemental
Motion/Corrected Motion so that Respondents could
appeal this Court’s ruling relating to the Motion to
Compel/Supplemental Motion/Corrected Motion to
the Dallas Court of Appeals, that request of Respondents is also denied.
IT IS THEREFORE ORDERED, ADJUDGED,
AND DECREED that Respondents request to stay
proceeding in this case, pending an appeal of the
Court’s ruling on the Motion to Compel/Supplemental Motion/Corrected Motion to the Dallas Court
of Appeals is DENIED.
SIGNED this 2nd day of June, 2015.
/s/
Judge Presiding

App.38a
ORDER GRANTING IN PART AND DENYING IN
PART PETITIONER RICKEY NEWSOME’S
MOTION FOR SUMMARY JUDGMENT
(MAY 28, 2015)
IN THE DISTRICT COURT 193RD JUDICIAL
DISTRICT OF DALLAS COUNTY, TEXAS
________________________
IN THE MATTER OF:
A TRANSFER OF STRUCTURED SETTLEMENT
PAYMENT RIGHTS BY RICKEY NEWSOME
________________________
Cause No. DC-14-14580-L
On the 26th day of May, 2015, came on for
consideration the Motion for Summary Judgment
(“Petitioner’s MSJ”) filed by Petitioner Rickey Newsome
(hereafter “Petitioner”). Counsel for Petitioner appeared
at the hearing, as did Petitioner himself. Respondents
RSL Funding, LLC (“RSL Funding”) and RSL SpecialIV, Limited Partnership (“RSL Special”), having previously appeared and answered in this case and
having previously filed a Response to the Petitioner’s
MSJ, appeared through their counsel at the summary
judgment hearing.
The Court has read and considered the (i)
Petitioner’s MSJ, including the appendix of documents
and exhibits filed with said motion; (ii) Respondents
RSL Funding and RSL Special’s (collectively, “Respondents”) Response to Rickey Newsome’s Motion for
Summary Judgment (“Respondents’ MSJ Response”);

App.39a
(iii) the letter brief filed with the Court by counsel for
Petitioner on May 20, 2015 (“Petitioner’s Letter Brief”);
and (iv) Respondents’ Response and Objections to
Rickey Newsome’s May 20, 2015 Letter to the Court
(the “Respondents’ Response to Petitioner’s Letter
Brief”), as well as all of the other pleadings, documents, and summary judgment evidence properly
filed and/or before the Court,
Having read and considered the motions/responses
set forth above and having heard the arguments of
counsel and having further considered the summary
judgment evidence filed by both Petitioner and
Respondents in support of, and/or in opposition to,
Petitioner’s MSJ, the Court finds that Petitioner’s
MSJ should be granted in part and denied in part.
There are no genuine issues of material fact as to
certain of Petitioner’s contentions and arguments in
this bill of review proceeding, such that Petitioner is
entitled to summary judgment as a matter of law as
follows:
1.

Summary judgment is proper and should be
granted in favor of Petitioner relative to
Petitioner’s claim that the Corrected Order
Approving Transfer Nunc Pro Tunc (the
“Nunc Pro Tunc Order”) signed and dated
by this Court on September 15, 2014 should
be, and hereby is, vacated and set aside.

With respect to certain of Petitioner’s contentions
and arguments made in this bill of review proceeding
and addressed in Petitioner’s MSJ, the Court finds
that Petitioner is not entitled to summary judgment
relative to certain of Petitioner’s issues, contentions
and claims because (i) there are genuine issues of

App.40a
material fact, (ii) Petitioner failed to establish his
right to judgment as a matter of law on such issues,
contentions, and arguments; and/or (iii) further development of the parties’ (Petitioner’s and Respondents’)
legal arguments and authorities are warranted.
Specifically, the Court finds as follows:
2.

With respect to Petitioner’s contentions and
arguments that the Order Approving Transfer
signed by this Court on October 23, 2013
(the “Transfer Order”) should be vacated
and set aside as a matter of law and that
RSL be ordered to return and/or repay or
reimburse to Petitioner all of the structured
settlement/annuity payments which RSL
has received and collected since the Transfer
Order was signed, the Court denies Petitioner’s MSJ. Should Petitioner still desire
to seek said relief-to have the Transfer Order
set aside and vacated and/or seek to have
the Court order RSL to repay to Petitioner
all
of
the
monthly
structured
settlement/annuity payments which have
been paid to and retained by RSL since the
Transfer Order was signed (plus interest on
said payments)—as requested by Petitioner
in the Petitioner’s MSJ, Petitioner may
pursue said claims in this matter, but is not
entitled to summary judgment on said claims.

3.

With respect to Petitioner’s claim for
attorneys’ fees, either as a sanction for
RSL’s actions and conduct in this matter
and/or in accordance with Tex. Civ. Prac. &
Rem. Code Ann. 141.001 et. seq., Petitioner
shall not be entitled to summary judgment

App.41a
on said claims. Should Petitioner still desire
to seek attorneys’ fees, Petitioner may
pursue said claims in this matter, but is not
entitled to summary judgment on said claims.
IT IS THEREFORE ORDERED ADJUDGED AND
DECREED that Petitioner’s MSJ is GRANTED in part
and DENIED in part.
1T IS ORDERED, ADJUDGED AND DECREED
THAT THE NUNC PRO TUNC ORDER IS HEREBY
set aside and vacated and shall have no further force
and effect. Said Nunc Pro Tune Order was void when
it was entered and is a nullity. The Nunc Pro Tune
Order may not be enforced by Respondents and is not
binding on Petitioner.
IT IS FURTHER ORDERED, ADJUDGED, AND
DECREED that:


Petitioner shall not have summary judgment
relative to its contention that the Order Approving
Transfer should be vacated and set aside and have
no further force and effect as a matter of law, as
that claim will be subject to further proceedings
in this Court.



Petitioner may not, by way of summary judgment,
secure an order from this Court directing and
requiring Respondents to repay, remit, and/or
reimburse Petitioner all of the structured settlement/annuity payments which were the subject of
the Order Approving Transfer and which have
been received and recovered by Petitioner since
the Order Approving Transfer was signed by this
Court, as that claim will be subject to further
proceedings in this Court.

App.42a


Petitioner shall not have summary judgment
relative to his claim for attorneys’ fees against
Respondents, as that claim will be subject to
further proceedings in this Court.

IT IS, FURTHER, ORDERED that the proceedings
in the above-referenced matter shall continue in the
193rd Judicial District Court of Dallas County, Texas.
SIGNED this 28 day of May, 2015.
/s/
Judge Presiding

App.43a
CORRECTED ORDER APPROVING
TRANSFER NUNC PRO TUNC
(SEPTEMBER 15, 2014)
IN THE DISTRICT COURT 193RD JUDICIAL
DISTRICT OF DALLAS COUNTY, TEXAS
________________________
IN THE MATTER OF:
A TRANSFER OF STRUCTURED SETTLEMENT
PAYMENT RIGHTS BY RICKEY NEWSOME
________________________
Cause No. DC-13-10132-L
AND NOW, this 15th day of September, 2014,
upon the amended application of RSL Funding, LLC
(“Transferee”), which appeared through counsel, and
Rickey Newsome (“Mr. Newsome”), who appeared in
person, and upon consideration of the pleadings on
file, and the evidence presented, the Court hereby
corrects and amends its previous Order, nunc pro tune,
and finds as follows in connection with concluding
that there has been full compliance with the Texas
Structured Settlement Protection Act, Tex. Civ. Prac.
& Rem. Code § 141.001 et seq. (the “Texas Transfer
Act”) in connection with this matter:
1. Mr. Newsome is entitled to receive certain
life-contingent payments (the “Life-Contingent Payments”) under a structured settlement agreement
and related annuity contract no. 90506877. The LifeContingent Payments are not due and payable unless

App.44a
Mr. Newsome is alive at the time each such payment
is due.
2. On or about September 24, 2013, Mr. Newsome
entered into a Transfer Agreement and Addendum to
Transfer Agreement (collectively, the “Transfer Agreement”) with Transferee, pursuant to which Mr.
Newsome agreed to receive certain funds from RSL
Special-IV, Limited Partnership (“Assignee”) in exchange for transferring his right to receive certain
structured settlement proceeds, specifically monthly
Life-Contingent Payments each in the amount of
$550.00, commencing on December 13, 2013 through
and including August 13, 2015; monthly Life-Contingent Payments each in the amount of $150.00,
commencing on September 13, 2015 through and
including May 13, 2018; and monthly Life-Contingent
Payments each in the amount $1,350.00, commencing
on June 13, 2018 through and including November 13,
2023 (collectively, the “Assigned Life-Contingent Payments”).
3. The transfer of the Assigned Life-Contingent
Payments by Mr. Newsome to Transferee as described
in the amended application in this matter and in the
Transfer Agreement and in the disclosure statement
(collectively, the “Proposed Transfer”) (i) complies
with ‘the requirements of the Texas Transfer Act,
and does not contravene any applicable federal or
state statute or regulation or the order of any court
or responsible governmental or administrative authority, (ii) wholly satisfies the requirements for a “qualified
order” under Internal Revenue Code, Section 5891(b),
and (iii) is in the best interest of Mr. Newsome,
taking into account the welfare and support of Mr.
Newsome’s dependents, of which there are none.

App.45a
4. Venue and jurisdiction are appropriate in this
Court because this is a District or County Court in
the county in which Mr. Newsome resides, as permitted
under 26 U.S.C. § 5891 and Tex. Civ. Prac. & Rem.
Code §§ 141.006(a) and 141.002(2)(B).
5. At least three (3) days before the date on
which Mr. Newsome signed the Transfer Agreement,
Transferee provided to Mr. Newsome a separate disclosure statement in accordance with the requirements of Tex. Civ. Prac. & Rem. Code § 141.003 and
215 ILCS 153/10.
6. Mr. Newsome has been advised in writing by
Transferee to seek independent professional advice
regarding the Proposed Transfer and has either received
the advice or knowingly waived the advice in writing.
7. Mr. Newsome’s spouse has consented in writing
to the Proposed Transfer.
8. Transferee provided notice of the hearing date
and Proposed Transfer to all interested parties,
including the annuity issuer, Allstate Life Insurance
Company (“Allstate Life”), and the annuity owner,
Allstate Insurance Company, as successor corporation
to Northbrook Excess & Surplus Insurance Co.
(collectively, “Allstate”), as required by Tex. Civ.
Prac. & Rem. § 141.006(b).
9. As stated by 26 U.S.C. § 5891(d), if the
applicable requirements of sections 72, 104(a)(1),
104(a)(2), 130, and 461(h) were satisfied at the time the
structured settlement involving structured settlement
payment rights was entered into, the subsequent
occurrence of a transfer shall not affect the application
of the provisions of such sections to the parties to the
structured settlement (including an assignee under a

App.46a
qualified assignment under section 130) in any taxable year.
10. The Transfer Agreement between Mr. Newsome and Transferee provides that, if Mr. Newsome is
domiciled in Texas, any disputes between the parties
will be governed in accordance with the laws of Texas
and that the domicile state of Mr. Newsome is the
proper venue to bring any cause of action arising out
of a breach of the Transfer Agreement.
11. Allstate, Transferee, Assignee, and all of
their successors and assigns have presented no evidence
that the Assigned Life-Contingent Payments have been
previously sold, assigned, encumbered, or otherwise
pledged, and Mr. Newsome represents and warrants
that Mr. Newsome has all right, title, and interest in
the Assigned Life-Contingent Payments with full
authority to make this Proposed Transfer to Transferee
and Assignee and that Mr. Newsome has not otherwise
sold assigned, encumbered or pledged the Assigned
Life-Contingent Payments.
12. Transferee assigned all of its interest in and
to the right to purchase the Assigned Life-Contingent
Payments to Assignee.
Based upon the foregoing findings, and being
satisfied that the Proposed Transfer satisfies all
applicable statutory requirements as set forth in the
Texas Transfer Act, the Proposed Transfer is hereby
APPROVED. It is therefore ORDERED, ADJUDGED,
and DECREED that:
A. Subject to all of the conditions set forth herein
and in the parties’ Stipulation (“Stipulation”),1 All1 As further set forth in the parties’ Stipulation, due to prior

App.47a
state Life will forward the Assigned Life-Contingent
Payments, when and if due, in accordance with the
parties’ Stipulation, including the Servicing Arrangement (the “Servicing Arrangement”) and the RSL
Servicing Arrangement (the “RSL Servicing
Arrangement”) set forth therein. Under no circumstances shall Allstate be obligated to make the
Assigned Life-Contingent Payments in any manner
other than as provided for in the parties’ Stipulation.
B. The obligation to make any of the LifeContingent Payments ceases on Mr. Newsome’s death.
Nothing in the subject amended application, the
Proposed Transfer, the parties’ Stipulation or any
other matter changes the fact that each of the LifeContingent Payments, including the Assigned LifeContingent Payments, is owed only if Mr. Newsome is
alive at the time each such payment is due.
C. Mr. Newsome has a continuing obligation at
all times relevant to the Proposed Transfer to immediately inform Assignee of any name and/or address
change and to cooperate in confirming his survival,
all as Assignee shall reasonably request.

transfers by Mr. Newsome and pursuant to a Servicing
Arrangement and subsequent agreements regarding said Servicing
Arrangement, the portion of the Life-Contingent Assigned
Payments each in the amount of $550.00 beginning December
13, 2013 through and including August 13, 20I5 (the “Feinberg
Trust Serviced Payments”) shall be remitted to Assignee by The
Elliot Sidell Trust of 1996, and any of its assignees, such as
Harriet A. Feinberg Revocable Trust UAD 09-06-1995 (collectively,
“Servicer”), as custodian and not as principal for the benefit of
RSL Special-IV, Ltd. Transferee and Assignee shall look solely
to Servicer for the Feinberg Trust Serviced Payments.

App.48a
D. Transferee shall provide to Allstate Life, at
the time this Order is submitted to Allstate Life, the
parties’ Stipulation, contemporaneously signed by
Mr. Newsome and notarized, as evidence that Mr.
Newsome is alive (the “Initial Required Confirmation”).
Beginning ninety (90) days after the date of the Initial
Required Confirmation and annually thereafter, and
upon request of Allstate where Allstate has a reasonable
belief that Mr. Newsome has died, until the due date
of the last Assigned Life-Contingent Payment, Transferee shall provide Allstate with written confirmation, contemporaneously signed by Mr. Newsome and
notarized, that Mr. Newsome is alive (the “Required
Confirmation”). Each Required Confirmation will be
sent by Transferee to Robin Gay, at Allstate Life
Insurance Company, 3100 Sanders Road, N3A, Northbrook, IL 60062 (or a successor designated in writing
by Allstate Life), Mr. Newsome and Transferee shall
cooperate with one another and with Allstate for purpose of providing each Required Confirmation. In the
event Transferee, Assignee or Allstate acquires information indicating Mr. Newsome has died, each shall
immediately provide the other with this information
in writing at the addresses provided herein.
E. In the event Transferee fails to provide the
Required Confirmation that Mr. Newsome is alive, or
if Allstate has a reasonable basis to believe that Mr.
Newsome has died, Allstate shall forward to Assignee
the information in writing, including any documentation, on which Allstate bases its determination that
Mr. Newsome has died and may suspend making any
of the Life-Contingent Payments, including the
Assigned Life-Contingent Payments and Remainder
Payments, until Allstate has received either: (i) the

App.49a
Required Confirmation or (ii) other evidence reasonably acceptable to Allstate, such as a search performed by Transferee and Assignee on Westlaw or
Lexis/Nexis or a review of the Social Security Administration’s Master Death File that does not produce
evidence of the death of Mr. Newsome, along with a
written statement by Transferee or Assignee detailing
the results of the search. Upon receipt of either (i) or
(ii), the suspended payments will be made to Assignee.
F. At all times during which Transferee and/or
Assignee has an obligation to provide the Required
Confirmation, Mr. Newsome shall provide to Transferee
and/or Assignee, at the address stated herein or any
other address provided by Transferee and/or Assignee
in writing to Mr. Newsome, any change of name and/or
address by Mr. Newsome, and Mr. Newsome’s issue,
heirs, beneficiaries, administrators, executors, executrixes, and/or any other representative of the
estate of Mr. Newsome shall have the duty to immediately notify Transferee and/or Assignee regarding
the survivorship of Mr. Newsome. Nothing contained
in this paragraph shall alter or modify Mr. Newsome’s
responsibilities to cooperate with Allstate regarding
survivorship.
G. To the extent any of the Assigned LifeContingent Payments are made to Assignee by Allstate
after the death of Mr. Newsome, Transferee shall
reimburse Allstate in the amount of such LifeContingent Payments, plus simple interest at 6% per
annum from the date the funds were paid through the
date reimbursement is tendered.
H. Nothing in the Proposed Transfer, the parties’
Stipulation or this Order changes the parties’ rights

App.50a
with respect to the Life-Contingent Payments, if any,
that are not the subject of the Proposed Transfer.
I. In the event Assignee further assigns or
otherwise transfers the Assigned Life-Contingent Payments (or any portion thereof or interest therein) to
any other person or entity, or in the event Mr.
Newsome seeks to assign the unassigned portion of
the Life-Contingent Payments to be remitted to Mr.
Newsome pursuant to the Servicing Arrangement and
the RSL Servicing Arrangement (a “Reassignment”),
Allstate will not be obligated to redirect the LifeContingent Payments that include the Assigned LifeContingent Payments (or any portion thereof) to any
person or entity other than as specified in the parties’
Stipulation, and Transferee, Assignee, and Mr. Newsome shall remain obligated to comply with all terms
and conditions herein and in the parties’ Stipulation.
However, if for reasons beyond the control of Assignee
or for traditional address change purpose the Designated Address (as defined in the parties’ Stipulation)
is no longer valid (i.e. if Assignee moves or the
Designated Address is no longer a viable address for
Assignee to receive payments), Allstate agrees to
make the Assigned Life-Contingent Payments due
under paragraph 3(b) of the parties’ Stipulation only
to a new payment address. Similarly, if Assignee moves
or the Designated Address is no longer a viable address
for Assignee to receive payments, Servicer shall forward
the Feinberg Trust Serviced Payments to Assignee at
Assignee’s new address. Notwithstanding the foregoing,
this Order and the parties’ Stipulation, including but
not limited to the Servicing Arrangement and the RSL
Servicing Arrangement, will remain binding and fully
enforceable against Transferee, Assignee, and Mr.

App.51a
Newsome, and under no circumstances will Transferee,
Assignee, or Mr. Newsome seek to compel Allstate,
nor shall Allstate be required, to modify the Servicing
Arrangement or the RSL Servicing Arrangement so as
to redirect any portion of the affected Life-Contingent
Payments to any person or entity other than as set
forth in the parties’ Stipulation.
J. All remaining Life-Contingent Payments (and
/or portions thereof), if any, that are not the subject
of the Proposed Transfer or the Servicing Arrangement or the RSL Servicing Arrangement and not
previously assigned, shall be made payable to Mr.
Newsome and will be forwarded by Allstate Life, if
and when due, to Mr. Newsome’s most recent known
address or any payment address designated by Mr.
Newsome, subject to Allstate’s consent.
K. Transferee shall defend, indemnify, and hold
harmless Allstate and its directors, shareholders,
officers, agents, employees, servants, successors, and
assigns, and any parent, subsidiary, or affiliate thereof, and their directors, shareholders, officers, agents,
employees, servants, successors, and assigns, past
and present, from and against any and all liability,
including reasonable attorneys’ fees and costs, for
any and all claims asserted by any person or entity,
including but not limited to any claims asserted by
any person or entity not a party hereto, claiming an
interest in the Assigned Life-Contingent Payments,
and any and all other claims made in connection with,
related to, or arising out of the Transfer Agreement,
the Assigned Life-Contingent Payments, the Servicing
Arrangement, the RSL Servicing Arrangement, the
Feinberg Trust Serviced Payments, any Reassignment,
the Proposed Transfer, or Allstate’s compliance with

App.52a
the parties’ Stipulation or this Order, except with
respect to claims by Transferee or Assignee against
Allstate to enforce Allstate’s obligations to Transferee
or Assignee under the parties’ Stipulation and this
Order.
L. Allstate’s lack of opposition to this matter, or
its or the other parties’ stipulation hereto or compliance herewith, shall not constitute evidence in this
or any matter, and is not intended to constitute
evidence in this or any matter, that:
(a) payments under a structured settlement
contract or annuity or related contracts can
be assigned or that “anti-assignment” or
“anti-encumbrance” provisions in structured
settlement contracts or annuities or related
contracts are not valid and enforceable;
(b) or other transactions entered into by Transferee and/or Assignee and their customers
constitute valid sales and/or loans; or
(c) Allstate has waived any right in connection
with any other litigation or claims; or
(d) Transferee or Assignee has waived any
right other than as expressly set forth in the
parties’ Stipulation and/or this Order.
M. Transferee, Assignee, and Mr. Newsome, for
themselves and for their respective directors, shareholders, officers, agents, employees, servants, successors, heirs, beneficiaries, contingent beneficiaries, executors, administrators, and assigns, and any parent,
subsidiary, or affiliate thereof, and their directors,
shareholders, officers, agents, employees, servants,
successors, heirs, beneficiaries, contingent beneficiaries,

App.53a
executors, administrators, and assigns, past and present
(the “Releasors”), hereby remise, release, and forever
discharge Allstate and its directors, shareholders,
officers, agents, employees, servants, successors, and
assigns, and any parent, subsidiary, or affiliate thereof,
and their directors, shareholders, officers, agents,
employees, servants, successors, and assigns, past
and present (the “Releasees”), of and from any and
all manner of actions and causes of action, suits,
debts, dues, accounts, bonds, covenants, contracts,
agreements, judgments, settlements, damages, claims,
and demands whatsoever, in law or in equity, in connection with, related to, or arising out of any claim or
allegation that was or could have been asserted in connection with, related to, or arising out of the Transfer
Agreement, the Assigned Life-Contingent Payments,
the Servicing Arrangement, the RSL Servicing Arrangement, the Proposed Transfer, the Feinberg Trust
Serviced Payments, any Reassignment or the parties’
Stipulation, which the Releasors have or had from
the beginning of the world through and including the
date of this Order, except for claims of the Releasors
against the Releasees to enforce the Releasees’ obligations to the Releasors, if any, under the parties’
Stipulation and this Order.
N. Transferee or Assignee shall send a signed
copy of this Order to the Servicer. Upon receipt thereof,
if Servicer, Transferee and Assignee do not enter into
a mutually agreed Stipulation within ten (10) days of
the entry of this Order, Servicer shall issue a formal
acknowledgment letter to Transferee and Assignee of
the transfer within ten (10) days of the date of receipt
of this Order that the Feinberg Trust Serviced Payments will be made to RSL Special-IV, Ltd. at 1980

App.54a
Post Oak Blvd., Suite 1975, Houston, Texas 77056
(unless a change of address has been provided by
Transferee or Assignee). The formal acknowledgment
letter shall be delivered to RSL Special-IV, Ltd. at
the address set forth below, Attn: President
O. Within seven (7) days following receipt of a
final certified copy of this Order, Transferee shall
circulate copies of this Order to counsel for Allstate
at the following address: Ingrid B. Hopkinson, Drinker
Biddle & Reath LLP, One Logan Square, Ste. 2000,
Philadelphia, PA 19103-6996.
P. Unless communications are by attorneys, any
notice or other communication required or permitted
by the terms of this Order shall be in writing and
shall be mailed by first-class, registered or certified
mail, return receipt requested, postage prepaid or
sent prepaid via a national overnight courier service,
addressed as follows (unless otherwise designated
elsewhere herein):
If to Transferee or Assignee
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975
Houston, TX 77056-3899
If to Allstate Insurance
Allstate Insurance Company
3100 Sanders Road, N3A
Northbrook, IL 60062
If to Allstate Life
Allstate Life Insurance Company
3100 Sanders Road, N3A
Northbrook, IL 60062

App.55a
If to Rickey/ Newsome
316 Parakeet Drive
Desoto, TX 75115
or to such other address as may be designated by any
of such parties by prior written notice to the other
parties in accordance with this paragraph.
JUDGMENT READ, RENDERED AND SIGNED
this 15th day of September, 2014.
/s/
Judge Presiding
APPROVED AND ENTRY
REQUESTED:
/s/ Rickey Newsome
316 Parakeet Drive
Desoto, TX 75115

Payee, pro se

/s/ L. Andy Peredes
State Bar No. 00788162
Two Post Oak Central
1980 Post Oak Blvd., Suite
1975
Houston, Texas 77056-3899
Phone: (713) 850-0700
Fax: (713) 850-8530

Attorney for Applicant RSL
Funding, LLC

App.56a
ORDER APPROVING TRANSFER
(OCTOBER 23, 2013)
IN THE DISTRICT COURT 193RD JUDICIAL
DISTRICT OF DALLAS COUNTY, TEXAS
________________________
IN THE MATTER OF:
A TRANSFER OF STRUCTURED SETTLEMENT
PAYMENT RIGHTS BY RICKEY NEWSOME
________________________
Cause No. DC-13-10132-L
AND NOW, this 23 day of October, 2013, upon the
amended application of RSL Funding, LLC (“Transferee”), which appeared through counsel, and Rickey
Newsome (“Mr. Newsome”), who appeared in person,
and upon consideration of the pleadings on file, and
the evidence presented, the Court hereby finds as
follows in connection with concluding that there has
been full compliance with the Texas Structured
Settlement Protection Act, Tex. Civ. Prac. & Rem.
Code § 141.001 et seq. (the “Texas Transfer Act”) in
connection with this matter:
1. Mr. Newsome is entitled to receive certain
life-contingent payments (the “Life-Contingent Payments”) under a structured settlement agreement
and related annuity contract no. 90506877. The LifeContingent Payments are not due and payable unless
Mr. Newsome is alive at the time each such payment
is due.

App.57a
2. On or about September 24, 2013, Mr. Newsome
entered into a Transfer Agreement and Addendum to
Transfer Agreement (collectively, the “Transfer Agreement”) with Transferee, pursuant to which Mr. Newsome agreed to receive certain funds from RSL SpecialIV, Limited Partnership (“Assignee”) in exchange for
transferring his right to receive certain structured
settlement proceeds, specifically monthly LifeContingent Payments each in the amount of $550.00,
commencing on December 13, 2013 through and
including August 13, 2015; monthly Life-Contingent
Payments each in the amount of $150.00, commencing
on September 13, 2015 through and including May
13, 2018; and monthly Life-Contingent Payments
each in the amount $1,350.00, commencing on June
13, 2018 through and including November 13, 2023
(collectively, the “Assigned Life-Contingent Payments”).
3. The transfer of the Assigned Life-Contingent
Payments by Mr. Newsome to Transferee as described
in the amended application in this matter and in the
Transfer Agreement and in the disclosure statement
(collectively, the “Proposed Transfer”) (i) complies
with the requirements of the Texas Transfer Act, and
does not contravene any applicable federal or state
statute or regulation or the order of any court or
responsible governmental or administrative authority,
(ii) wholly satisfies the requirements for a “qualified
order” under Internal Revenue Code, Section 5891(b),
and (iii) is in the best interest of Mr. Newsome,
taking into account the welfare and support of Mr.
Newsome’s dependents, of which there are none.
4. Venue and jurisdiction are appropriate in this
Court because this is a District or County Court in
the county in which Mr. Newsome resides, as permitted

App.58a
under 26 U.S.C. § 5891 and Tex. Civ. Prac. & Rem.
Code §§ 141.006(a) and 141.002(2)(B).
5. At least three (3) days before the date on
which Mr. Newsome signed the Transfer Agreement,
Transferee provided to Mr. Newsome a separate disclosure statement in accordance with the requirements of Tex. Civ. Prac. & Rem. Code § 141.003 and
215 ILCS 153/10.
6. Mr. Newsome has been advised in writing by
Transferee to seek independent professional advice
regarding the Proposed Transfer and has either received
the advice or knowingly waived the advice in writing.
7. Mr. Newsome’s spouse has consented in writing
to the Proposed Transfer.
8. Transferee provided notice of the hearing date
and Proposed Transfer to all interested parties, including the annuity issuer, Allstate Life Insurance
Company (“Allstate Life”), and the annuity owner,
Allstate Insurance Company, as successor corporation
to Northbrook Excess & Surplus Insurance Co.
(collectively, “Allstate”), as required by Tex. Civ.
Prac. & Rem. § 141.006(b).
9. As stated by 26 U.S.C. § 5891(d), if the
applicable requirements of sections 72, 104(a)(1),
104(a)(2), 130, and 461(h) were satisfied at the time
the structured settlement involving structured settlement payment rights was entered into, the subsequent
occurrence of a transfer shall not affect the application
of the provisions of such sections to the parties to the
structured settlement (including an assignee under a
qualified assignment under section 130) in any taxable
year.

App.59a
10. The Transfer Agreement between Mr. Newsome and Transferee provides that, if Mr. Newsome is
domiciled in Texas, any disputes between the parties
will be governed in accordance with the laws of Texas
and that the domicile state of Mr. Newsome is the
proper venue to bring any cause of action arising out
of a breach of the Transfer Agreement.
11. Allstate, Transferee, Assignee, and all of
their successors and assigns have presented no evidence
that the Assigned Life-Contingent Payments have been
previously sold, assigned, encumbered, or otherwise
pledged, and Mr. Newsome represents and warrants
that Mr. Newsome has all right, title, and interest in
the Assigned Life-Contingent Payments with full
authority to make this Proposed Transfer to Transferee
and Assignee and that Mr. Newsome has not otherwise
sold assigned, encumbered or pledged the Assigned
Life-Contingent Payments.
12. Transferee assigned all of its interest in and
to the right to purchase the Assigned Life-Contingent
Payments to Assignee.
Based upon the foregoing findings, and being
satisfied that the Proposed Transfer satisfies all
applicable statutory requirements as set forth in the
Texas Transfer Act, the Proposed Transfer is hereby
APPROVED. It is therefore ORDERED, ADJUDGED,
and DECREED that:
A. Subject to all of the conditions set forth herein
and in the parties’ Stipulation (“Stipulation”),1 All1 As further set forth in the parties’ Stipulation, due to prior
transfers by Mr. Newsome and pursuant to a Servicing
Arrangement and subsequent agreements regarding said Servicing
Arrangement, the portion of the Life-Contingent Assigned

App.60a
state Life will forward the Assigned Life-Contingent
Payments, when and if due, in accordance with the
parties’ Stipulation, including the Servicing Arrangement (the “Servicing Arrangement”) and the RSL
Servicing Arrangement (the “RSL Servicing Arrangement”) set forth therein. Under no circumstances
shall Allstate be obligated to make the Assigned LifeContingent Payments in any manner other than as
provided for in the parties’ Stipulation.
B. The obligation to make any of the LifeContingent Payments ceases on Mr. Newsome’s death.
Nothing in the subject amended application, the
Proposed Transfer, the parties’ Stipulation or any
other matter changes the fact that each of the LifeContingent Payments, including the Assigned LifeContingent Payments, is owed only if Mr. Newsome is
alive at the time each such payment is due.
C. Mr. Newsome has a continuing obligation at
all times relevant to the Proposed Transfer to immediately inform Assignee of any name and/or address
change and to cooperate in confirming his survival,
all as Assignee shall reasonably request.
D. Transferee shall provide to Allstate Life, at the
time this Order is submitted to Allstate Life, the
parties’ Stipulation, contemporaneously signed by
Mr. Newsome and notarized, as evidence that Mr.
Payments each in the amount of $550.00 beginning December
13, 2013 through and including August 13, 2015 (the “Feinberg
Trust Serviced Payments”) shall be remitted to Assignee by The
Elliot Sidell Trust of 1996, and any of its assignees, such as
Harriet A. Feinberg Revocable Trust UAD 09-06-1995 (collectively,
“Servicer”), as custodian and not as principal for the benefit of
RSL Special-IV, Ltd. Transferee and Assignee shall look solely
to Servicer for the Feinberg Trust Serviced Payments.

App.61a
Newsome is alive (the “Initial Required Confirmation”).
Beginning ninety (90) days after the date of the Initial
Required Confirmation and annually thereafter, and
upon request of Allstate where Allstate has a reasonable
belief that Mr. Newsome has died, until the due date
of the last Assigned Life-Contingent Payment, Transferee shall provide Allstate with written confirmation,
contemporaneously signed by Mr. Newsome and
notarized, that Mr. Newsome is alive (the “Required
Confirmation”). Each Required Confirmation will be
sent by Transferee to Robin Gay, at Allstate Life Insurance Company, 3100 Sanders Road, N3A, Northbrook,
IL 60062 (or a successor designated in writing by
Allstate Life). Mr. Newsome and Transferee shall
cooperate with one another and with Allstate for
purpose of providing each Required Confirmation. In
the event Transferee, Assignee or Allstate acquires
information indicating Mr. Newsome has died, each
shall immediately provide the other with this information in writing at the addresses provided herein.
E. In the event Transferee fails to provide the
Required Confirmation that Mr. Newsome is alive, or
if Allstate has a reasonable basis to believe that Mr.
Newsome has died, Allstate shall forward to Assignee
the information in writing, including any documentation, on which Allstate bases its determination that
Mr. Newsome has died and may suspend making any
of the Life-Contingent Payments, including the
Assigned Life-Contingent Payments and Remainder
Payments, until Allstate has received either: (i) the
Required Confirmation or (ii) other evidence
reasonably acceptable to Allstate, such as a search
performed by Transferee and Assignee on Westlaw or
Lexis/Nexis or a review of the Social Security Admin-

App.62a
istration’s Master Death File that does not produce
evidence of the death of Mr. Newsome, along with a
written statement by Transferee or Assignee detailing
the results of the search. Upon receipt of either (i) or
(ii), the suspended payments will be made to Assignee.
F. At all times during which Transferee and/or
Assignee has an obligation to provide the Required
Confirmation, Mr. Newsome shall provide to Transferee
and/or Assignee, at the address stated herein or any
other address provided by Transferee and/or Assignee
in writing to Mr. Newsome, any change of name and/or
address by Mr. Newsome, and Mr. Newsome’s issue,
heirs, beneficiaries, administrators, executors, executrixes, and/or any other representative of the
estate of Mr. Newsome shall have the duty to immediately notify Transferee and/or Assignee regarding
the survivorship of Mr. Newsome. Nothing contained
in this paragraph shall alter or modify Mr. Newsome’s
responsibilities to cooperate with Allstate regarding
survivorship.
G. To the extent any of the Assigned LifeContingent Payments are made to Assignee by Allstate
after the death of Mr. Newsome, Transferee shall
reimburse Allstate in the amount of such Life-Contingent Payments, plus simple interest at 6% per annum
from the date the funds were paid through the date
reimbursement is tendered.
H. Nothing in the Proposed Transfer, the parties’
Stipulation or this Order changes the parties’ rights
with respect to the Life-Contingent Payments, if any,
that are not the subject of the Proposed Transfer.
I. In the event Assignee further assigns or
otherwise transfers the Assigned Life-Contingent Pay-

App.63a
ments (or any portion thereof or interest therein) to
any other person or entity, or in the event Mr. Newsome seeks to assign the unassigned portion of the
Life-Contingent Payments to be remitted to Mr.
Newsome pursuant to the Servicing Arrangement and
the RSL Servicing Arrangement (a “Reassignment”),
Allstate will not be obligated to redirect the LifeContingent Payments that include the Assigned LifeContingent Payments (or any portion thereof) to any
person or entity other than as specified in the parties’
Stipulation, and Transferee, Assignee, and Mr. Newsome shall remain obligated to comply with all terms
and conditions herein and in the parties’ Stipulation.
However, if for reasons beyond the control of Assignee
or for traditional address change purpose the Designated Address (as defined in the parties’ Stipulation)
is no longer valid (i.e. if Assignee moves or the
Designated Address is no longer a viable address for
Assignee to receive payments), Allstate agrees to
make the Assigned Life-Contingent Payments due
under paragraph 3(b) of the parties’ Stipulation only
to a new payment address. Similarly, if Assignee moves
or the Designated Address is no longer a viable address
for Assignee to receive payments, Servicer shall forward
the Feinberg Trust Serviced Payments to Assignee at
Assignee’s new address. Notwithstanding the foregoing,
this Order and the parties’ Stipulation, including but
not limited to the Servicing Arrangement and the RSL
Servicing Arrangement, will remain binding and fully
enforceable against Transferee, Assignee, and Mr.
Newsome, and under no circumstances will Transferee,
Assignee, or Mr. Newsome seek to compel Allstate,
nor shall Allstate be required, to modify the Servicing
Arrangement or the RSL Servicing Arrangement so as
to redirect any portion of the affected Life-Contingent

App.64a
Payments to any person or entity other than as set
forth in the parties’ Stipulation.
J. All remaining Life-Contingent Payments (and/
or portions thereof), if any, that are not the subject of
the Proposed Transfer or the Servicing Arrangement
or the RSL Servicing Arrangement and not previously
assigned, shall be made payable to Mr. Newsome and
will be forwarded by Allstate Life, if and when due,
to Mr. Newsome’s most recent known address or any
payment address designated by Mr. Newsome, subject
to Allstate’s consent.
K. Transferee shall defend, indemnify, and hold
harmless Allstate and its directors, shareholders,
officers, agents, employees, servants, successors, and
assigns, and any parent, subsidiary, or affiliate thereof, and their directors, shareholders, officers, agents,
employees, servants, successors, and assigns, past
and present, from and against any and all liability,
including reasonable attorneys’ fees and costs, for
any and all claims asserted by any person or entity,
including but not limited to any claims asserted by
any person or entity not a party hereto, claiming an
interest in the Assigned Life-Contingent Payments,
and any and all other claims made in connection with,
related to, or arising out of the Transfer Agreement,
the Assigned Life-Contingent Payments, the Servicing
Arrangement, the RSL Servicing Arrangement, the
Feinberg Trust Serviced Payments, any Reassignment,
the Proposed Transfer, or Allstate’s compliance with
the parties’ Stipulation or this Order, except with
respect to claims by Transferee or Assignee against
Allstate to enforce Allstate’s obligations to Transferee
or Assignee under the parties’ Stipulation and this
Order.

App.65a
L. Allstate’s lack of opposition to this matter, or
its or the other parties’ stipulation hereto or compliance herewith, shall not constitute evidence in this
or any matter, and is not intended to constitute
evidence in this or any matter, that:
(a) payments under a structured settlement
contract or annuity or related contracts can
be assigned or that “anti-assignment” or
“anti-encumbrance” provisions in structured
settlement contracts or annuities or related
contracts are not valid and enforceable; or
(b) other transactions entered into by Transferee and/or Assignee and their customers
constitute valid sales and/or loans; or
(c) Allstate has waived any right in connection
with any other litigation or claims; or
(d) Transferee or Assignee has waived any
right other than as expressly set forth in the
parties’ Stipulation and/or this Order.
M. Transferee, Assignee, and Mr. Newsome, for
themselves and for their respective directors, shareholders, officers, agents, employees, servants, successors, heirs, beneficiaries, contingent beneficiaries, executors, administrators, and assigns, and any parent,
subsidiary, or affiliate thereof, and their directors,
shareholders, officers, agents, employees, servants,
successors, heirs, beneficiaries, contingent beneficiaries,
executors, administrators, and assigns, past and present
(the “Releasors”), hereby remise, release, and forever
discharge Allstate and its directors, shareholders,
officers, agents, employees, servants, successors, and
assigns, and any parent, subsidiary, or affiliate thereof,
and their directors, shareholders, officers, agents,

App.66a
employees, servants, successors, and assigns, past
and present (the “Releasees”), of and from any and
all manner of actions and causes of action, suits,
debts, dues, accounts, bonds, covenants, contracts,
agreements, judgments, settlements, damages, claims,
and demands whatsoever, in law or in equity, in connection with, related to, or arising out of any claim or
allegation that was or could have been asserted in connection with, related to, or arising out of the Transfer
Agreement, the Assigned Life-Contingent Payments,
the Servicing Arrangement, the RSL Servicing
Arrangement, the Proposed Transfer, the Feinberg
Trust Serviced Payments, any Reassignment or the
parties’ Stipulation, which the Releasors have or had
from the beginning of the world through and including
the date of this Order, except for claims of the
Releasors against the Releasees to enforce the
Releasees’ obligations to the Releasors, if any, under
the parties’ Stipulation and this Order.
N. Transferee or Assignee shall send a signed
copy of this Order to the Servicer. Upon receipt thereof,
if Servicer, Transferee and Assignee do not enter into
a mutually agreed Stipulation within ten (10) days of
the entry of this Order, Servicer shall issue a formal
acknowledgment letter to Transferee and Assignee of
the transfer within ten (10) days of the date of receipt
of this Order that the Feinberg Trust Serviced Payments will be made to RSL Special-IV, Ltd. at 1980
Post Oak Blvd., Suite 1975, Houston, Texas 77056
(unless a change of address has been provided by
Transferee or Assignee). The formal acknowledgment
letter shall be delivered to RSL Special-IV, Ltd. at
the address set forth below, Attn: President.

App.67a
O. Within seven (7) days following receipt of a
final certified copy of this Order, Transferee shall
circulate copies of this Order to counsel for Allstate
at the following address: Ingrid B. Hopkinson, Drinker
Biddle & Reath LLP, One Logan Square, Ste. 2000,
Philadelphia, PA 19103-6996.
P. Unless communications are by attorneys, any
notice or other communication required or permitted
by the terms of this Order shall be in writing and
shall be mailed by first-class, registered or certified
mail, return receipt requested, postage prepaid or
sent prepaid via a national overnight courier service,
addressed as follows (unless otherwise designated
elsewhere herein):
If to Transferee or Assignee
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975
Houston, TX 77056-3899
If to Allstate Insurance
Allstate Insurance Company
3100 Sanders Road, N3A
Northbrook, IL 60062
If to Allstate Life
Allstate Life Insurance Company
3100 Sanders Road, N3A
Northbrook, IL 60062
If to Rickey/ Newsome
316 Parakeet Drive
Desoto, TX 75115

App.68a
or to such other address as may be designated by any
of such parties by prior written notice to the other
parties in accordance with this paragraph.
JUDGMENT READ, RENDERED AND SIGNED
this 23 day of October, 2013.
/s/
Judge Presiding
* Transferee to pay Mr. Newsome the sum of $53,000.00 in 10
days from this Order being signed or transferee will be required
to pay Mr. Newsome $103,000.00.

App.69a
ORDER OF THE TEXAS SUPREME COURT
DENYING MOTION FOR REHEARING
(MARCH 29, 2019)
IN THE SUPREME COURT OF TEXAS
________________________
RSL FUNDING, LLC,

Petitioners,
v.
NEWSOME,

Respondent.

________________________
RE Case No. 16-0998
COA: 05-15-00718-CV
TC: DC-14-14580-L

Today the Supreme Court of Texas denied the
motion for rehearing in the above-referenced cause

App.70a
MOTION FOR SUMMARY JUDGMENT
RELEVANT EXCERPTS
(APRIL 28, 2015)
IN THE DISTRICT COURT 193RD JUDICIAL
DISTRICT OF DALLAS COUNTY, TEXAS
________________________
IN THE MATTER OF:
A TRANSFER OF STRUCTURED SETTLEMENT
PAYMENT RIGHTS BY RICKEY NEWSOME
________________________
Cause No. DC-14-14580-L
TO THE HONORABLE COURT:
Rickey Newsome (“Newsome” or “Petitioner”) files
this Motion for Summary Judgment and Brief in
Support Thereof relating to Newsome’s Bill of Review
and would respectfully show the court as follows:
I.

Summary Judgment Evidence

Petitioner Rickey Newsome is simultaneously filing
an Appendix in Support of Motion for Summary
Judgment, which contains all of the summary judgment
evidence relied on by Petitioner in this Motion for
Summary Judgment and Brief in Support Thereof (the
“Motion”). The documents and materials submitted and
relied on as summary judgment evidence are listed
below. References to exhibit or “Ex.” in the Motion
shall be to the corresponding numbered exhibit in the
Appendix.
● Exhibit 1: Affidavit of Rickey Newsome

App.71a
● Exhibit 2: Transfer Agreement
(dated August 1, 2013)
● Exhibit 3: Application for Approval of a Transfer (filed by RSL on August 29, 2013)
● Exhibit 4: Transfer Agreement and Addendum
to Transfer Agreement (dated September 24,
2013)
● Exhibit 5: Amended Application for Approval
of Transfer (filed October 2, 2013)
[...]
. . . court granted a temporary injunction, enjoining
RSL from pursuing arbitration in the Harris County
Lawsuit.
III. Argument and Authorities
36. Being frustrated in his attempts to conclude
his transaction with RSL and having not been paid
either purchase price set forth in the Order Approving
Transfer (neither the $ 53,000 nor the $106,000), and
having been ignored when he attempted to initiate
conversations with RSL to try and resolve this matter,
Mr. Newsome filed this bill of review to set aside and
vacate the Nunc Pro Tunc Order.
37. A bill of review is an independent equitable
action brought by a party to a previous suit who
seeks to set aside a judgment that is no longer subject
to a motion for new trial or appealable. Wembley Inv.
Co. v. Herrera, 11 S.W.3d 924, 926-927 (Tex. 1999);
Caldwell v. Barnes, 975 S.W.2d 535, 537 (Tex. 1998);
In re D.S., 76 S.W.3d 512, 518 (Tex. App.—Houston
[14th Dist.] 2002, no pet.) (after time for appeal
expires, bill of review is exclusive remedy to vacate
judgment, or provision of judgment). A void judgment

App.72a
may be attacked directly by bill of review. Kollman
Stone Industries, Inc. v. Keller, 574 S.W.2d 249, 251
(Tex. Civ. App.—Beaumont 1978, no writ). As a matter
of law, the Nunc Pro Tunc Order is void and must be
set aside and vacated.
A. The Nunc Pro Tunc Order Should be Set Aside
and the Court Should Enforce the Order
Approving Transfer
i. Courts’ Plenary Power
38. Every district and county level court of
general jurisdiction has the jurisdictional power to
vacate, modify, correct, or reform a final judgment or
to grant a new trial at any time before its plenary
power expires. Check v. Mitchell, 758 S.W.2d 755,
755-756 (Tex. 1988).
[...]
. . . hand-picked arbitrator would ignore the law and
not only permit RSL to avoid its legal obligations
under the Order Approving Transfer, but also award
it attorneys fees and damages against Newsome.
And, in a move that was exceedingly telling about
RSL’s underlying motivation and understanding about
its problematic legal issues, RSL ran to another
District Court to try and compel arbitration, rather
than presenting issues to the only court (this Court)
that could legitimately rule as to whether the Order
Approving Transfer, the Nunc Pro Tunc Order, or
either was effective and enforceable.
50. Thus, RSL is in violation of both orders and
should be held in contempt of court and sanctioned
for refusing to honor and comply with the orders

App.73a
which it secured in this Court and for retaining Mr.
Newsome’s monthly payments.
51. Alternatively and/or in addition, the Court
should set aside and vacate both the Nunc Pro Tunc
Order and the Order Approving Transfer, confirm that
none of Mr. Newsome’s structured settlement/annuity
payments have been transferred and assigned to RSL
or RSL/Special, order RSL/RSL Special to immediately
remit to Mr. Newsome all such monthly structured
settlement payments that they have received from
Allstate since January of 2014, plus pay Mr. Newsome
interest on the payments that Mr. Newsome have not
received from Allstate, and order RSL/RSL Special to
pay Mr. Newsome’s attorneys’ fees incurred as a
sanction for RSL’s improper and inappropriate actions
and conduct in this matter and in filing the Harris
County Lawsuit. An appropriate sanction in the case
would be to order RSL to repay to Newsome the
monthly payments RSL has receive since February of
2015, pay Newsome interest on the diverted payments,
and pay Newsome’s attorneys fees in the amount of $
31,500 and/or sanction RSL for its failure to honor
the underlying court orders and for their conduct in
this case in trying . . .
[...]
. . .Supreme Court, Newsome seeks an additional award
of $15,000 to participate in the appeal to the Texas
Supreme Court should RSL lose. All such fees and
expenses are recoverable by Newsome in accordance
with Tex. Civ. Prac. & Rem. Code Ann. § 141.005
(Section 141.005).

App.74a
IV. Prayer
WHEREFORE, PREMISES CONSIDERED, Rickey
Newsome prays that the Court grant this motion for
summary judgment; that this Court issue an order
finding the Nunc Pro Tunc Order void and vacating
and setting aside and nullifying same; that the Court
rule that the Order Approving Transfer is valid,
enforceable and effective in all respects against RSL;
that RSL must pay Newsome’s attorneys fees as set
forth herein, under Section 141.005 due to RSL’s
violations of the Texas Transfer Statute and/or as a
sanction for RSL’s actions and conduct in this case.
Alternatively, Newsome would request that the Court
set aside and vacate both the Order Approving Transfer
and Nunc Pro Tunc Order due to RSL’s failure to
comply with the Texas Transfer Statute and order RSL
to remit and pay to Newsome all of the monthly
payments which RSL has received since January 2014
and pay Newsome his attorneys fees incurred in this
matter in the amount of $ 31,500 plus an additional
$20,000 as a sanction for failing to comply with the
Texas Transfer Statute and as a result of RSL’s actions
and conduct in this case. Newsome further prays for
such other and further relief, at law or in equity, to
which Newsome may show himself justly entitled.
Respectfully submitted,
Nesbitt, Vassar & Mccown, LLP
15851 Dallas Parkway, Suite 800
Addison, TX75001
(972) 371-2411
(972) 371-2410-Telecopier

App.75a
By: /s/ Earl S. Nesbitt
Earl S. Nesbitt
State Bar No. 14916900
enesbitt@nvmlaw.com
David S. Vassar
State Bar No. 20503175
dvassar@nvmlaw.com
Patrick P. Sicotte
State Bar No. 24079330
psicotte@nvmlaw.com
Attorneys for Rickey Newsome

App.76a
RICKEY NEWSOME’S FIRST AMENDED
PETITION FOR BILL OF REVIEW
(MARCH 2, 2015)
IN THE DISTRICT COURT 193RD JUDICIAL
DISTRICT OF DALLAS COUNTY, TEXAS
________________________
IN THE MATTER OF:
A TRANSFER OF STRUCTURED SETTLEMENT
PAYMENT RIGHTS BY RICKEY NEWSOME
________________________
Cause No. DC-14-14580-L
TO THE HONORABLE COURT:
Rickey Newsome (“Newsome” or “Petitioner”),
complains of RSL Funding, LLC (“RSL Funding”) and
RSL Special-IV, Limited Partnership (“RSL Special”),
and for cause of action shows:
I.

Parties

1. Petitioner Newsome is a resident of Dallas
County, Texas.
2. Respondent RSL Funding is a Texas limited
liability company that can be served with this amended
pleading through its counsel of record who has appeared
in this case.
3. Respondent RSL Special is a limited partnership
and may be served with this amended pleading by
serving its counsel of record who has appeared in this
case.

App.77a
4. Newsome, RSL Funding, and RSL Special were
parties in Cause No. 13-10132, In re: A Transfer of

Structured Settlement Payment Rights by Rickey
Newsome, initially filed by RSL Funding in this, the
193rd District Court of Dallas, County, Texas (the
“RSL-Newsome Transfer Case”) in 2013.

5. Respondent RSL Funding is based in Houston,
Harris County, Texas, but routinely does business in
Dallas County, Texas. As set forth below (¶14), RSL
Funding initiated the RSL-Newsome Transfer Case in
Dallas County by filing pleadings in this court seeking
judicial approval of a transfer of structured settlement
payment rights by Rickey Newsome to RSL Funding in
accordance with Tex. Civ. Prac. & Rem. Code Ann.
§ 141.001 et. seq. (the “Texas Transfer Statute”). Thus,
RSL Funding invoked the jurisdiction of this court.
6. Respondent RSL Special was named by RSL
Funding as an assignee of certain structured settlement/annuity payments in the judgments/orders
rendered by this court in the RSL-Newsome Transfer
Case, which judgments and orders are the subject of
this bill of review proceeding. Upon information and
belief, RSL Special has its principal place of business
in Harris County, Texas and is an affiliate of RSL
Funding. RSL Special is, and was, a party in the RSLNewsome Transfer Case by virtue of being named in
the judgments/orders rendered in that case as RSL
Funding’s designated assignee.
7. Newsome pleads that discovery should be conducted in accordance with a discovery control plan
under TEX. R. CIV. P. 190.3.

App.78a
II.

Background Facts

8. In 1985, Newsome settled a personal injury
claim in California whereby he became entitled to
receive structured settlement payments from Allstate
Insurance Company (“Allstate Insurance”) in accordance with a settlement agreement (the “Settlement
Agreement”).
9. The Settlement Agreement provided for Mr.
Newsome to receive structured settlement payments
(the “Settlement Payments”) as follows: (i) monthly
payments of $3,065.00, increasing 3% every September
13th, beginning on September 13, 1986 and continuing
through and including August 13, 2005, and (ii) one
lump sum payment of $250,000 due on April 14, 2020
(the “Newsome Guaranteed Payments”), plus (iii)
monthly payments of $5,535.74 commencing on September 13, 2005 and continuing for the duration of Mr.
Newsome’s life, increasing 3% annually in September
of each year (the “Newsome Life Contingent Payments”).
10. Allstate Insurance purchased an annuity,
contract no. 90506877 (the “Allstate Annuity”), from
Allstate Life Insurance Company to fund the obligation
to make the Settlement Payments to Mr. Newsome. The
payments due under the Annuity (the “Annuity Payments”) correspond, in terms of the amount and
timing of same to the Settlement Payments.
11. Over the course of several years, Mr. Newsome completed several structured settlement transfer transactions with different funding companies/
transferees in Arizona, Mississippi, and Texas. All of
those transactions were court-approved in accordance
with applicable state transfer statutes.

App.79a
12. In the summer of 2013, RSL Funding contacted Newsome in Dallas County, Texas and solicited
him to enter into a transaction with RSL Funding
involving the transfer/assignment of certain of Newsome’s structured settlement/annuity payments. Prior
to being contacted by RSL Funding, Mr. Newsome had
never done business with or heard of RSL Funding.
13. RSL Funding and Newsome eventually entered into a contract for the transfer and assignment to
RSL Funding of certain of Mr. Newsome’s future
structured settlement/annuity payments. RSL Funding
filed for court approval of the proposed transfer in
Dallas County District Court in accordance with the
Texas Transfer Statute.
14. Specifically, on or about August 1, 2013, Newsome and RSL Funding signed a Transfer Agreement
(For Transfer of Structured Settlement Payment
Rights), prepared by RSL Funding and submitted to
Newsome, whereby Newsome agreed to transfer and
assign to RSL Funding the right to receive a portion
of the future Newsome Life Contingent Payments as
follows: sixty (60) monthly payments in the amount
of $400.00 each beginning on September 13, 2013 and
continuing through and including August 13, 2018,
and sixty-six (66) monthly payments in the amount
of $1,200.00 each beginning on September 13, 2018
and continuing through and including February 13,
2024 (the “Initial RSL-Newsome Transaction”). In
consideration for the transfer/assignment of these payments, RSL Funding was to pay Newsome the sum of
$53,000.00. On or about August 29, 2013, RSL Funding filed an Application for Approval of a Transfer
with the Dallas County District Clerk seeking approval
of the Initial RSL-Newsome Transaction in accord-

App.80a
ance with the Texas Transfer Statute. The case was
assigned to this court and styled In the Matter of : A

Transfer of Structured Settlement Payment Rights
by Rickey Newsome; Cause No. DC-13-10132-L–the
“RSL-Newsome Transfer Case”.

15. On or about September 24, 2013, Newsome
and RSL Funding entered into a revised contract, a
Transfer Agreement (For Transfer of Structured
Settlement Payment Rights) and Addendum to Transfer
Agreement (the “Transfer Agreement”) whereby Newsome agreed to transfer and assign to RSL Funding the
right to receive certain of the Newsome Life Contingent Payments as follows: twenty-one (21) monthly
payments in the amount of $550.00 each beginning
on December 13, 2013 and continuing through and
including August 13, 2015; thirty-three (33) monthly
payments in the amount of $150.00 each beginning on
September 13, 2015 and continuing through and
including May 13, 2018; and sixty-six (66) monthly
payments in the amount of $1,350.00 each beginning on
June 13, 2018 and continuing through and including
November 13, 20231 (the “RSL-Newsome Transaction”).
In consideration for transferring and assigning to
RSL Funding the right to receive the Assigned Payments pursuant to the Transfer Agreement, Newsome was to be paid the sum of $53,000.00 by RSL
Funding.
16. On or about October 2, 2013, RSL Funding
filed its Amended Application for Approval of a Transfer
1 The structured settlement/annuity payments which RSL
Funding proposed to acquire from Newsome in connection with
the RSL-Newsome Transaction will hereinafter sometimes be
referred to as the “Assigned Payments”.

App.81a
in the RSL-Newsome Transfer Case seeking court
approval of the RSL-Newsome Transaction (the “RSL
Application”)2. A hearing on the RSL Application was
scheduled for October 23, 2013. Counsel for RSL
attended that hearing and Mr. Newsome appeared and
attended the hearing pro se. At the conclusion of that
hearing, an Order Approving Transfer was presented
to the court by counsel for RSL Funding. The court
signed the Order Approving Transfer on October 23,
2013 (the “Order Approving Transfer”), approving the
RSL-Newsome Transaction and the transfer of the
Assigned Payments from Newsome to RSL’s designated
assignee, RSL Special. A true and correct copy of the
Order Approving Transfer is attached hereto as Exhibit
B. The Order Approving Transfer found that jurisdiction
and venue were proper in this Court; that the RSLNewsome Transaction was in Newsome’s best interest;
and that the payments which were the subject of the
RSL-Newsome Transaction were to be paid in accordance with the stipulation of the parties.
17. Importantly, in the Order Approving Transfer
(p. 11), this court expressly ordered as follows: “Transferee [RSL] to pay Mr. Newsome the sum of $53,000.00
in 10 days from this Order [the Order Approving
Transfer] being signed or transferee [RSL] will be
required to pay Mr. Newsome $106,000.00”. Judge
2 A true and correct copy of the RSL Application is attached
hereto as Exhibit A. The Transfer Agreement is attached to the
RSL Application as Exhibit 1. RSL Funding purportedly
provided notice of the RSL-Newsome Transaction, the Transfer
Agreement, and the RSL Application to, among others, Allstate
Life Insurance Company, as the annuity issuer, and Allstate
Insurance Company, as the structured settlement obligor/annuity
owner (collectively, hereafter referred to as “Allstate”).

App.82a
Ginsberg hand-wrote this language into the Order
Approving Transfer. Following the court’s approval
of the RSL-Newsome Transaction and the RSL Application, and the signing of the Order Approving Transfer
on October 23, 2013, Mr. Newsome ceased receiving
the Assigned Payments in February 2014. Those
monthly payments, in the amount of $ 550.00 per
month, are now being paid and remitted to RSL
Funding’s designated assignee, RSL Special, apparently
pursuant to the Order Approving Transfer, which was
presumably delivered to Allstate and/or Security
Title Agency, a servicing entity/payment agent which
had been designated to receive certain payments
from Allstate and service and distribute those payments pursuant to a servicing arrangement referenced
and approved in a prior court order.
18. Despite entry of the Order Approving Transfer
and the diversion of the monthly Assigned Payments
from Mr. Newsome, neither RSL Funding nor RSL
Special (hereafter sometimes collectively referred to
as “RSL”), have paid Mr. Newsome the purchase price
ordered and approved by the 193rd District Court –
neither the $53,000.00 that RSL was ordered to pay
to Mr. Newsome within ten (10) days of the Order
Approving Transfer being signed, nor the $106,000.00
RSL was ordered to pay to Mr. Newsome if the
transaction was funded more than ten (10) days after
the Order Approving Transfer was signed. Since the
Order Approving Transfer was signed, RSL has not paid
Mr. Newsome anything in connection with the contemplated transaction/transfer, but has received the
monthly payments in question (the Assigned Payments)
since February of 2014, which as of January 30, 2014,
totals $ 6,600.00. In short, RSL has refused to close

App.83a
and fund the transaction by paying the purchase price
due Mr. Newsome AND has continued to receive and
retain the monthly Assigned Payments.
19. As of the date of the filing of this petition,
Newsome has not received any more money from RSL
other than an initial $1,000.00 advance paid to
Newsome by RSL Funding upon execution of the
Transfer Agreement as an inducement to persuade
Newsome to enter into the transaction with RSL
Funding in the first place.
20. On or about May 22, 2014, seven (7) months
after the Order Approving Transfer had been signed
by the court and three (3) months after Newsome had
ceased receiving the monthly payments, Newsome sent
a letter to the Judge of the 193rd District Court,
Judge Carl Ginsberg, confirming that Newsome had not
received the money he was entitled to pursuant to
the Order Approving Transfer and that he was
experiencing financial hardship as a result of RSL’s
failure to comply with the Order Approving Transfer
(the “May 22 Letter”). A true and correct copy of the
May 22 Letter is attached hereto as Exhibit C.
21. Upon receipt of the May 22 Letter, this court
signed an Order to Appear wherein the court took note
of the Order Approving Transfer and the May 22 Letter
(the “Order to Appear”). A true and correct copy of
the Order to Appear is attached hereto as Exhibit D.
The Order to Appear ordered Derek Kopacz and L.
Andy Paredes to appear in this Court on June 4, 2014
to:
determine whether the Court should set a
future show cause hearing to determine
whether the Court should hold RSL Funding,

App.84a
LLC and Derek Kopacz in contempt of Court
for allegedly failing to comply with the
[Order Approving Transfer].
22. On June 4, 2014 this court conducted a hearing pursuant to the Order to Appear. At this hearing,
which Mr. Newsome and counsel for RSL attended,
the court indicated its concern about the failure of
RSL to conclude and fund the transaction pursuant
to the Order Approving Transfer rendered over nine
(9) months prior and ordered the parties to mediation.
23. On or about July 31, 2014, Newsome sent
another letter to the court, again complaining of
RSL’s failure to abide by the RSL-Newsome Transaction
and comply with the Order Approving Transfer (the
“July 31 Letter”). A true and correct copy of the July
31 Letter is attached hereto as Exhibit E. The July
31 Letter confirms Newsome’s understanding that the
Order Approving Transfer required RSL to pay him
$53,000.00 if Newsome was paid within ten (10) days
of the Order Approving Transfer or $106,000.00 if
RSL did not pay Newsome within ten (10) days of the
Order Approving Transfer. The July 31 Letter further
confirms that Newsome was not receiving the Assigned
Payments, and had not been paid any monies relating
to the closing/funding of the RSL-Newsome Transaction
as required by the Order Approving Transfer.
24. Neither RSL Funding nor RSL Special
appealed the Order Approving Transfer or filed a
motion for new trial or motion to modify, amend, or
correct the order within the time periods required by
Texas law for doing so, which was 30 days from the
date the Order Approving Transfer was signed in
October of 2013. Thus, the Order Approving Transfer
became final and non-appealable thirty days after

App.85a
the date of same and the 193rd District Court lost
plenary power over the case, and therefore the power
to amend, modify, correct, set aside, vacate, correct,
or change the Order Approving Transfer, on November
23, 2013.
25. Following the June 4, 2014 hearing, the
parties did participate in at least two mediations.
Ultimately, Mr. Newsome, who had not received any
of the Assigned Payments since January of 2014 and
who had not received any money from RSL since the
Order Approving Transfer had been signed by the
Court, reluctantly agreed, under duress, to accept the
original $53,000.00 purchase price from RSL Funding,
after RSL informed Mr. Newsome him that they would
never pay him the $106,000.00 required by the Order
Approving Transfer, BUT promised and represented to
him that they would pay him the $53,000.00 within
ten (10) days after the court signed a new order.
26. Thereafter, on August 29, 2014, RSL filed an
Agreed Motion for Entry of Corrected Order Nunc Pro
Tunc (the “Nunc Pro Tunc Motion”) complaining that:
During the October 23, 2013 hearing, and
without the consent of the parties, handwritten language was added to the [Order
Approving Transfer] by the Court, which
altered the agreed upon monetary terms,
and such added language directly contradicts
many of the provisions in the agreed Transfer Agreement and Disclosure Statement.
27. RSL requested entry of a Corrected Order
Nunc Pro Tunc to remove the hand-written language
from the Order Approving Transfer. Mr. Newsome,
acting under duress and in reliance on RSL’s promises

App.86a
and agreements and representations that it could and
would secure an amended order and would comply with
same and promptly pay to Mr. Newsome the original
$53,000.00 purchase price, consented to RSL’s actions
in trying to secure a Corrected Order Nunc Pro Tunc.
A true and correct copy of the Nunc Pro Tunc Motion
filed by RSL is attached hereto as Exhibit F.
28. On September 15, 2014, this Court signed a
Corrected Order Approving Transfer Nunc Pro Tunc
(the “Nunc Pro Tunc Order”). A true and correct copy
of the Nunc Pro Tunc Order is attached hereto as
Exhibit G. Thereafter, RSL Funding and RSL Special
still failed and refused to pay Mr. Newsome any funds
and to this date have not paid or tendered to him any
additional funds relative to the transaction, yet RSL
still continues to receive, collect, and retain his
monthly payments. RSL has attempted to acquire and
seize the Assigned Payments from Mr. Newsome without paying for them.
29. Via letter dated November 21, 2014, the undersigned attorneys, representing Newsome, sent
correspondence to RSL demanding that RSL honor the
Order Approving Transfer and pay Newsome the sum
of $106,000, as ordered by the Court (Exhibit H). The
November 21, 2014 letter informed RSL that the Nunc
Pro Tunc Order was void and indicated that Newsome’s
attorneys would take action on his behalf to set aside
the improper and void nunc pro tunc order, recover
Mr. Newsome’s structured settlement payments, and/or
seek attorneys’ fees if RSL did not fund the transaction
as ordered by the court. Prior to sending this letter,
counsel for Mr. Newsome called counsel for RSL and
informed them that he was representing Mr. Newsome
and that RSL should be expecting the letter. Although

App.87a
this correspondence and counsel’s phone call invited
RSL’s attorneys to review the letter and discuss a
possible resolution of this matter, RSL took no such
action to try and resolve the matter with Newsome.
Instead, RSL filed a new (and improvident and
improper) lawsuit in Harris County, Texas against
Mr. Newsome. RSL took this action in order to avoid
having to explain itself to this Court.
30. On November 26, 2014, RSL Funding filed
Plaintiff’s Original Petition in RSL Funding, LLC v.
Rickey Newsome. That petition, which was filed solely
and exclusively to provide RSL a vehicle in RSL’s
home county to try and force Mr. Newsome into
arbitration in a hasty, inherently unfair proceeding
in an inconvenient location, was assigned cause number
2014-69639 and assigned to the 61st District Court of
Harris County, Texas (the “Harris County Lawsuit”).
(A copy of the petition, without exhibits, filed by RSL
Funding is attached as Exhibit I).
31. In the Harris County Lawsuit, despite knowledge of the Order Approving Transfer and the Nunc
Pro Tunc Order and despite having initiated and
appeared and sought affirmative relief from this court
on several occasions, RSL Funding sought improper
declaratory relief against Mr. Newsome and demanded
arbitration with Mr. Newsome via an Expedited Motion
to Compel Arbitration included with the improper claim
for declaratory relief and sought an order compelling
Mr. Newsome to arbitrate with RSL in Houston on an
expedited basis. RSL Funding filed the Harris County
Lawsuit as a pretext to trying to compel arbitration
with Newsome in what RSL likely perceived to be a
friendlier forum and in an effort to avoid the 193rd
District Court. RSL Funding obtained a December 12,

App.88a
2014 hearing on its Expedited Motion to Compel
Arbitration in the Harris County Lawsuit, even though
Mr. Newsome had not even been served in the Harris
County Lawsuit and well before any answer date for
Mr. Newsome. (A copy of RSL Funding’s Notice of
Hearing relating to its Expedited Motion to Compel
Arbitration is attached as Exhibit J.)
32. Having been rejected by RSL in his efforts
to pursue a resolution of this matter, and in the face
of improper, hasty and aggressive actions by RSL in
Harris County, Newsome filed this bill of review in
this court, as this court is the only court with the
power, jurisdiction, and authority to set aside, vacate,
and/or enforce the Nunc Pro Tunc Order and/or Order
Approving Transfer. (RSL’s proposed arbitration was
improper because only this court had the jurisdiction
and authority to decide and determine whether the
Nunc Pro Tunc Order or the Order Approving Transfer
[or either] was effective and/or would stand and RSL
was seeking to enforce, through arbitration, the Nunc
Pro Tunc Order only. Arbitration will be unnecessary
and moot, once this court rules on the bill of review
and arbitration could not proceed until the issue of
which judgment/final order, if any, is valid by this
Court.)
III. Argument and Authorities
33. Mr. Newsome files this bill of review to set
aside and vacate the Nunc Pro Tunc Order. A void
judgment may be attacked directly by bill of review.
Kollman Stone Industries, Inc. v. Keller, 574 S.W.2d
249, 251 (Tex. Civ. App.—Beaumont 1978, no writ).
A bill of review is an independent equitable action
brought by a party to a previous suit who seeks to set

App.89a
aside a judgment that is no longer subject to a motion
for new trial or appealable. Wembley Inv. Co. v. Herrera, 11 S.W.3d 924, 926-927 (Tex. 1999); Caldwell v.
Barnes, 975 S.W.2d 535, 537 (Tex. 1998); In re D.S.,
76 S.W.3d 512, 518 (Tex. App.—Houston [14th Dist.]
2002, no pet.) (after time for appeal expires, bill of
review is exclusive remedy to vacate judgment, or
provision of judgment).
A. The Nunc Pro Tunc Order Should be Set Aside
and the Court Should Enforce the Order
Approving Transfer
i. Courts’ Plenary Power
34. Every district and county level court of
general jurisdiction has the jurisdictional power to
vacate, modify, correct, or reform a final judgment or
to grant a new trial at any time before its plenary
power expires. Check v. Mitchell, 758 S.W.2d 755,
755-756 (Tex. 1988). Within the periods during which
the trial court has the plenary power to vacate, modify,
correct, or reform its judgment, its jurisdictional
power to modify the judgment in accordance with the
law and the evidence is virtually absolute. Garza v.
Serrato, 671 S.W.2d 713, 714 (Tex. App.—San Antonio
1984, no writ). The date a judgment is signed starts
the post-judgment periods of plenary power. TEX. R.
CIV. P. 306a; see also Burrell v. Cornelius, 570 S.W.2d
382, 383 (Tex. 1982).
35. The trial court has plenary power to modify,
correct, or reform a judgment within 30 days after
the judgment is signed, regardless of whether an
appeal has been perfected. TEX. R. CIV. P. 329b(d).
A judgment becomes final when the trial court loses

App.90a
plenary power. TEX. R. CIV. P. 306a(1). The date the
trial court loses plenary power depends on the date
the judgment was signed, whether one of the postjudgment motions extending the court’s plenary power
was filed, and if filed, whether the motion was overruled
or granted. If no post-judgment motions are filed, the
trial court loses plenary power and the judgment
becomes final 30 days after it was signed. Lane Bank
Equip. Co. v. Smith S. Equip., Inc., 10 S.W.3d 308,
310 (Tex. 2000).
36. As a general rule, a trial court has no jurisdiction to consider a request for relief after it loses
plenary power over its judgment. First Alief Bank v.
White, 682 S.W.2d 251, 252 (Tex. 1984). Provided,
however, after it loses plenary power, the trial court
does continue to have the power to make only clerical
changes to the judgment. TEX. R. CIV. P. 316.
ii. Scope of Nunc Pro Tunc Remedy
37. The purpose of a judgment nunc pro tunc is
to correct a clerical error in the judgment after the
court’s plenary power has expired. Jenkins v. Jenkins,
16 S.W.3d 473, 482 (Tex. App—El Paso 2000, no pet.);
Ferguson v. Naylor, 860 S.W.2d 123, 126 (Tex. App.—
Amarillo 1993, writ denied); West Tex. State Bank v.
General Res., 723 S.W.2d 304, 306 (Tex. App.—Austin
1987, writ ref’d n.r.e.). Further, the only ground for a
motion for judgment nunc pro tunc is to correct a
clerical error made in entering the judgment. Escobar
v. Escobar, 711 S.W.2d 230, 231 (Tex. 1986) (contrasted
with judicial error made in the judgment).
38. If the court attempts to correct a judicial
error by signing a judgment nunc pro tunc after is
plenary power expires, the judgment is void. See

App.91a

Dikeman v. Snell, 490 S.W.2d 183, 186 (Tex. 1973);
Barton v. Gillespie, 178 S.W.3d 121, 126 (Tex. App.—
Houston [1st Dist.] 2005, no pet.); In re Rollins
Leasing, Inc., 987 S.W.2d 633, 638 9Tex. App—Houston
[14th Dist.] 1999, orig. proceeding); Wood v. Griffin &
Brand, 671 S.W.2d 125, 132 (Tex. App.—Corpus Christi
1984, no writ). After the court’s plenary power expires,
the court cannot change the judgment by calling the
correction of a judicial error a “judgment nunc pro
tunc.” Dikeman, 490 S.W.2d at 186.

39. A judicial error in a judgment is one arising
from a mistake in law or fact that determines the
outcome of the case and that requires the exercise of
judicial reasoning or determination to correct. Andrews
v. Koch, 702 S.W.2d 584, 585 (Tex. 1986); see also
West Tex. State Bank, 723 S.W.2d at 306. A judicial
error is one made by the court in rendering judgment,
as opposed to an error made in entering judgment in
the record. Escobar, 711 S.W.2d at 231; see also
Samples Exterminators v. Samples, 640 S.W.2d 873,
875 (Tex. 1982). Thus, a correction that changes the
terms of the judgment actually rendered involves the
correction of judicial error, and cannot be made after
the expiration of the trial court’s plenary power.
Dikeman, 490 S.W.2d at 186 (final judgment cannot
be corrected after expiration of plenary power to
change decretal portion of judgment as rendered); see
also Comet Aluminum Company v. Dibrell, 450 S.W.2d
56, 59 (Tex. 1970) (inclusion of prejudgment interest
constituted judicial mistake, not clerical error).
40. The distinction between clerical and judicial
errors does not depend on the seriousness of the error
or whether the error was made by the judge, the clerk,
or counsel, but on whether it was the result of judicial

App.92a
reasoning and determination. Andrews, 702 S.W.2d at
585. Accordingly, erroneous substantive recitations
and provisions are generally held to be judicial errors
that cannot be corrected after the judgment is final.
See Finlay v. Jones, 435 S.W.2d 136, 138-139 (Tex.
1968) (incorrect recital of due service of citation).
41. RSL has refused to comply with and honor the
Order Approving Transfer and has refused to comply
with and honor the Nunc Pro Tunc Order. The Nunc
Pro Tunc Order was not a Nunc Pro Tunc Order as
allowed and recognized by Texas law. The Nunc Pro
Tunc Order was an improper attempt by RSL to
substantively modify, correct, and amend this court’s
true final judgment, the Order Approving Transfer,
after this court had lost plenary power over the RSLNewsome Transfer Case. The errors which RSL purportedly sought to correct by virtue of the Nunc Pro
Tunc Order were not clerical errors. The only reason
that RSL sought the Nunc Pro Tunc Order was to
have the court purport to delete the language whereby
the court had ordered RSL to pay Mr. Newsome the
$106,000 purchase price if RSL failed to pay Mr.
Newsome the $53,000.00 purchase price within ten
(10) days from the date of the order. The “error” of
which RSL complained with regarding RSL to pay
Mr. Newsome $106,000.00 is clearly not a clerical error.
If fact, Newsome would submit that it is not an error
at all. It was language specifically inserted by this
Court, most likely to provide an incentive to RSL to
make prompt payment of the purchase price to Mr.
Newsome and to enable this Court to enforce RSL’s
obligation to pay Mr. Newsome.
42. RSL sought to retroactively and improperly
alter, amend, reform, correct, and change the Order

App.93a
Approving Transfer because it failed and refused to
comply with said order. RSL was able to coerce Mr.
Newsome in to going along in RSL’s efforts to secure
the void and improper Nunc Pro Tunc Order by refusing
to pay him any purchase price (the $53,000.00 or the
$106,000.00), by receiving and keeping his monthly
payments, by representing to him that they would never
pay him on the Order Approving Transfer, and by
falsely promising and representing to him that they
would promptly pay him once the new order was signed.
RSL acted improperly and illegally in securing the
Nunc Pro Tunc Order.
43. RSL’s pleadings seeking the Nunc Pro Tunc
Order acknowledge that the error was substantive,
not clerical. RSL alleged that the court improperly
altered the agreed-upon terms of the parties relative
to proposed transfer by inserting the language relating
to the alternate purchase price of $106,000.00. RSL’s
own pleadings confirm that RSL was seeking to correct
a “judicial error” in the Order Approving Transfer.
The Nunc Pro Tunc Order is therefore void and must
be set aside via this bill of review.
44. Ultimately, once this Court confirms, via
this bill of review proceeding, that the Nunc Pro
Tunc Order is void, and vacates and sets aside same,
the Order Approving Transfer becomes the final
judgment of this court and would remain in full force
and effect and should be promptly enforced by the
court. In fact, since the Nunc Pro Tunc Order is void,
the Order Approving Transfer is the final judgment
of this Court and must be enforced.
45. RSL has failed and refused to honor either
order or pay Mr. Newsome any of the money Newsome
is entitled to receive. Even after securing its void

App.94a
Nunc Pro Tunc Order, RSL has failed and refused to
pay Mr. Newsome any portion of the purchase price
agreed to by RSL and/or ordered by this court to be
paid to him. As such, RSL has violated the court’s
judgment (either or both of them) and has violated
the Texas Transfer Statute, which clearly contemplates
and provides that when a transferee, such as RSL,
applies to the court for, and secures court approval
of, a transfer of structured settlement payment rights,
representing and agreeing that the transferee will
pay the agreed-upon purchase price to the payee (here
Mr. Newsome), that the transferee will actually do
so. Thus, when the transferee fails and refuses to
honor and comply with the court order approving the
transfer, the transferee has violated the Texas Transfer
Statute.
46. Furthermore, RSL has indicated no intention
of paying Mr. Newsome what he is owed–whether it is
the $ 106,000 or $ 53,000–yet continues to receive,
collect, and retain Mr. Newsome’s monthly payments.
Either way, RSL is in violation of this court’s orders
and should be held in contempt of court and sanctioned
for (i) refusing to honor and comply with the orders
which it secured improperly, illegally, and/or under
false pretenses; (ii) for diverting and retaining Mr.
Newsome’s monthly payments; and (iii) for filing
groundless, specious pleadings seeking to delay
Newsome’s attempts to rectify the situation and enforce
the proper court order–the Order Approving Transfer–
in the proper court.
47. This court should therefore grant Newsome’s
bill of review and set aside and vacate the Nunc Pro
Tunc Order and confirm that the Order Approving

App.95a
Transfer is the true, final judgment of this court in
the RSL-Newsome Transfer Case.
48. Alternatively and/or in addition, the court
should, by way of this bill of review, set aside and
vacate both the Nunc Pro Tunc Order and the Order
Approving Transfer, confirm that none of Mr. Newsome’s structured settlement/annuity payments have
been or ever were properly transferred and assigned
to RSL, order RSL to immediately remit and pay to
Mr. Newsome all of Mr. Newsome’s monthly structured
settlement payments that RSL has received, and pay
Mr. Newsome interest on the Assigned Payments
that RSL diverted and retained. RSL also violated
the Texas Transfer Statute by including prohibited
provisions in its contractual documents with Mr.
Newsome. Additionally, this court should order RSL
to pay Mr. Newsome’s attorneys’ fees incurred as a
result of this bill of review and Newsome’s efforts to
enforce the court’s transfer order, due to RSL’s failure
to comply with the Texas Transfer Statute as a sanction
for RSL’s improper and inappropriate actions and
conduct in this matter and in filing the Harris County
Lawsuit, and/or pursuant to this court’s equitable
powers.
B. RSL is Liable to Newsome for Costs, Including
Attorneys’ Fees, Pursuant to TEX. CIV. PRAC.
& REM. CODE § 141.005
49. As a result of RSL’s failure to comply with
the Texas Transfer Statute in securing and honoring
the Order Approving Transfer and the Nunc Pro Tunc
Order, and in failing and refusing to pay any monies
to Mr. Newsome (neither the purchase price set forth
in the Transfer Agreement or the purchase price

App.96a
ordered by the Court in the Order Approving Transfer)
in connection with the proposed transfer, RSL is liable
to Mr. Newsome for all liabilities and costs incurred
by Mr. Newsome as a result of RSL’s conduct and
actions and inactions. RSL has failed to comply with
the Texas Transfer Statute, the Order Approving
Transfer and the Nunc Pro Tunc Order. Mr. Newsome
has been damaged as a result of RSL’s actions and
conduct by not having received the monthly Assigned
Payments which are the subject of the proposed
transaction since February of 2014. Furthermore, Mr.
Newsome has incurred attorneys’ fees and costs and
expenses, as a result of RSL’s actions and conduct,
both in having to file this matter and in having to
deal with the Harris County Lawsuit, which was
improperly and improvidently filed. RSL is liable to
Mr. Newsome for such attorneys’ fees and costs.
IV. Conditions Precedent
All conditions precedent have occurred or have
been performed by Newsome or have been waived by
RSL to entitle Newsome to all of the relief sought
herein.
V.

Prayer

WHEREFORE, PREMISES CONSIDERED, Rickey Newsome prays that a bill of review be granted and
issue as requested herein; that this court issue an
order vacating and setting aside and nullifying the
Nunc Pro Tunc Order, which was improperly and
unlawfully procured by RSL, and confirming the Order
Approving Transfer as the final judgment of this court
in the RSL-Newsome Transfer Case; and that the court
proceed with enforcement of the Order Approving

App.97a
Transfer in all respects against RSL Funding and RSL
Special. Additionally and/or in the alternative, Newsome prays that this court order that RSL must
promptly reimburse, pay, and remit to Newsome an
amount equal to all of the monthly payments which
RSL has received (which were anticipated to be included
in the Assigned Payments) and/or interest on same
or interest on the purchase price since the date the
court’s judgment in the RSL-Newsome Transfer Case
became final. Additionally and/or in the alternative,
Newsome prays that the court grant and issue a bill
of review finding and ordering that both the Nunc
Pro Tunc Order and/or the Order Approving Transfer
be set aside and vacated and that no payments have
been transferred and assigned to RSL and ordering
that RSL immediately remit, return, and pay all of
the monthly payments that RSL has received (relative
to the Assigned Payments) and pay interest on the
diversion and retention of same by RSL. Additionally,
Newsome prays that the court find and order that RSL
should pay Newsome the attorneys fees and expenses
and costs incurred by Newsome in connection with filing
and prosecuting this bill of review and/or in enforcing
the Order Approving Transfer and/or pursuing a TRO
and injunctive relief against RSL and in responding
to the motion to recuse, pursuant to the statutory
provisions cited herein (including the Texas Transfer
Statute), under the Texas Rules of Civil Procedure,
and/or as a sanction, pursuant to the inherent equitable
powers of this court in the context of a bill of review,
and/or pursuant to other principles of the law and
award Newsome attorneys fees, expenses, and court
costs. Newsome further prays for such other and further
relief, at law or in equity, to which Newsome may
show himself justly entitled.

App.98a

Respectfully submitted,
Nesbitt, Vassar & Mccown, LLP
15851 Dallas Parkway, Suite 800
Addison, TX75001
(972) 371-2411
(972) 371-2410-Telecopier
By: /s/ Earl S. Nesbitt
Earl S. Nesbitt
State Bar No. 14916900
enesbitt@nvmlaw.com
David S. Vassar
State Bar No. 20503175
dvassar@nvmlaw.com
Patrick P. Sicotte
State Bar No. 24079330
psicotte@nvmlaw.com
Attorneys for Rickey Newsome

App.99a
AMENDED APPLICATION FOR
APPROVAL OF A TRANSFER
(OCTOBER 13, 2013)
IN THE DISTRICT COURT 193RD JUDICIAL
DISTRICT OF DALLAS COUNTY, TEXAS
________________________
IN THE MATTER OF:
A TRANSFER OF STRUCTURED SETTLEMENT
PAYMENT RIGHTS BY RICKEY NEWSOME
________________________
Cause No. DC-13-10132-L
Applicant RSL Funding, LLC (“RSL Funding” or
“Transferee”) files this Application for Approval of a
Transfer pursuant to the Texas Structured Settlement
Protection Act and requests that the Court approve
the transfer by Rickey Newsome of his rights as set
out in the attached Amended Transfer Agreement
(“Transfer Agreement”), Amended Addendum to Transfer Agreement and Amended Disclosure Statement
(“Disclosure Statement”). In support of this Amended
Application (“Application”), Transferee respectfully
shows the Court as follows:
Discovery Control Plan
1. Pursuant to Texas Rule of Civil Procedure
190.4, Applicant moves that the Court issue a Discovery
Control Plan tailored to the specific circumstances of
this matter. Transfers under Chapter 141 of the Texas
Civil Practice & Remedies Code are generally
unopposed and do not require discovery. However,

App.100a
Interested Parties may file objections. Applicant asks
the Court to reserve issuance of a Discovery Control
plan until such time as an objection by an Interested
Party is filed.
2. Transferee is a Texas limited liability company
authorized to and doing business in the State of Texas.
Interested Parties
3. Rickey Newsome (“Payee”) is single individual,
residing in Dallas County, Texas. Payee is receiving
tax-free payments under a structured settlement. Payee
proposes to Transfer certain life-contingent payment
rights under the structured settlement to Transferee
pursuant to Chapter 141 of the Texas Civil Practice
& Remedies Code (“Act”).
4. The other parties interested in this Application
are listed as follows:
A.

Annuity Issuer: Allstate Life Insurance
Company, 3100 Sanders Road, N3A, Northbrook, IL 60062;

B.

Structured Settlement Obligor/Annuity
Owner: Allstate Insurance Company, 3100
Sanders Road, N3A, Northbrook, IL 60062;
and

C.

Payee’s Beneficiary(ies); LaTonya, Rickey,
Eric, Richard, and James Winfred.

Venue and Jurisdiction
5. Venue and jurisdiction are proper in this court
under 26 U.S.C. § 5891 and § 141.002(2) of the Act
because this is a court located in the county in which
the Payee resides.

App.101a
Statement of Facts
6. On information or belief, Payee settled all
claims asserted by him or on his behalf as resulted in
personal injuries or sickness, in a settlement agreement
or final judgment. The settlement agreement constitutes
a Structured Settlement Agreement as that term is
defined under § 141.002(14) of the Act. On information
or belief, the Structured Settlement Agreement obligated the Annuity Owner to make periodic payments
to Payee. The terms of the Structured Settlement
Agreement constitute a Structured Settlement as that
term is defined under § 141.002(13) of the Act.
7. On information or belief, the underlying
defendant made a qualified assignment to the Annuity
Owner under § 130(c) of the Internal Revenue Code
in order to fulfill its obligations to Payee under the
Structured Settlement Agreement. Annuity Owner
purchased Annuity Contract No. 90-506-877/878 from
Annuity Issuer naming Payee as Annuitant. Under
this annuity, Annuity Issuer makes the Periodic Payments required of the Annuity Owner directly to
Payee although Annuity Owner guarantees the Periodic Payments.
The Transfer
8. Subject to this Court’s approval, Payee desires
to sell, inter alia, certain rights, as set forth in the
Transfer Agreement and Disclosure Statement,
including all or a portion of the life-contingent periodic payments, to Transferee, its successors and/or
assigns (collectively including the Assigned Payments,
as defined below, being the “Transfer”), with such
monetary life-contingent payments being:

App.102a
Twenty-One (21) monthly payments each in
the amount of $550 beginning on December
13, 2013 through and including August 13,
2015; thirty-three (33) monthly payments
each in the amount of $150 beginning on
September 13, 2015 through and including
May 13, 2018; and sixty-six (66) monthly payments each in the amount of $1350 beginning
on June 13, 2018 through and including
November 13, 2023 (collectively the “Assigned
Payments”).
Applicant RSL requests that this Court conclude that
(i) Annuity Owner, Annuity Issuer, Transferee, its
successors and/or assigns, and Payee do not have
evidence that these Assigned Payments have been
previously sold, assigned, conveyed, encumbered, transferred, or pledged, (ii) each was affirmatively obligated
to come forth with any information to the contrary;
and (iii) Payee has all rights, title and interest in the
Assigned Payments with full authority to make this
transfer to Transferee. Transferee reserves the right
to assign its rights under this application to another
person or entity, which will be included in the Order
of Transfer.
9. More specifically, Payee received a Disclosure
Statement and Transfer Agreement, and Payee executed the Transfer Agreement more than three (3)
days after Payee received the Disclosure Statement.
Under the Transfer Agreement, Payee agreed to
Transfer to Transferee the Assigned Payments. This
document constitutes a Transfer Agreement as
defined by § 141.002(19) of the Act1 and is attached
1 Transferee redacted the social security number of the Payee

App.103a
hereto as Exhibit 1 and is incorporated herein by
reference as if fully set forth at length. The Disclosure Statement satisfies the requirements of
§ 141.003 of the Act and is attached hereto as Exhibit
2 and incorporated herein by reference as if fully set
forth at length.
10. The Transfer is in the best interests of
Payee, taking into account the welfare and support of
Payee’s dependents, if any, as required by 26 USC
§ 5891 and § 141.004(1) of the Act. Payee is selling
his payments in order to expand his own trucking
business. See Declaration of Rickey Newsome
attached as Exhibit 3 hereto and incorporated herein
as if fully set forth at length.
11. Further, the current conditions in the
financial marketplace affecting the long term viability
of annuity issuers additionally support the appropriateness of Payee’s sale of the Assigned Payments. Documentation to support such current marketplace conditions is attached hereto as Exhibit 4, and further
explained under “State of Capital Markets” below.
12. Payee has been advised in writing to seek
Independent Professional Advice regarding the financial, legal, and tax implications of the Transfer has
either obtained that advice or has knowingly waived
that right in writing as provided in the Act at
§ 141.004. Payee’s statement concerning Independent
Professional Advice is attached hereto as Exhibit 5
and incorporated herein by reference as if fully set
forth at length.
from the Transter Agreement to protect the privacy of the Payee
from disclosure through public documents.

App.104a
13. More than twenty days prior to the hearing
for approval of the Transfer, Transferee will send
written notice of the hearing, along with Transferee’s
name, address, and taxpayer identification number
to the Annuity Issuer, Annuity Owner, and all other,
if any, Interested Parties, and will file same with the
Court as provided in the Act at § 141.006. An exemplar of such notice is attached hereto as Exhibit 6
and is incorporated herein as if fully set forth at
length. Specifically, Annuity Owner and Annuity Issuer
and all interested parties will be provided with the
following documents:
i.

A copy of this Application for Approval of a
Transfer;

ii.

A copy of the Transfer Agreement;

iii. A copy of the Disclosure Statement;
iv. A list of Payee’s dependent(s), together with
each dependent’s age;
v.

Notification that any interested party is
entitled to support, oppose, or otherwise
respond to this Application, either in person
or by counsel, by submitting written comments to the court or by participating in the
hearing; and

vi. Notification of the time and place of the
hearing and notification of the manner in
which and the time by which written
responses to the Application must be filed in
order to be considered by the court.
14. The Transfer is in the best interest of the
Payee, taking into account the welfare and support
of the Payee’s dependents, if any, and the Transfer

App.105a
does not contravene any applicable statute or an
order of any court or other governmental authority as
required under § 141.004 of the Act; the Transfer also
satisfies the Internal Revenue Code § 5891.
Applicant attaches § 5891 of the United States Code
for the Court’s easy reference.
15. Payee also desires to change the beneficiary
for the Assigned Payments to Transferee or its
assigns for the Assigned Payments.
16. As required under § 141.007(a) of the Act,
the Payee has not waived any provisions that are not
expressly allowed by the Act.
17. As required under § 141.007(b) of the Act,
the Transfer Agreement states that if the Payee is a
resident of the State of Texas, any disputes under the
transfer agreement, including any claim that the
payee has breached the agreement, shall be determined in and under the laws of this state. The Transfer Agreement does not authorize the Transferee or
any other party to confess judgment or consent to
entry of judgment against the Payee.
18. The Annuity Issuer, Annuity Owner, and
Payee will not incur any adverse tax consequences
because Congress clarified the law on this issue in
§ 5891(d) of the United States Code by stating that
“If the applicable requirements of §§ 72, 104(a)(1),
104(a)(2), 130, and 461(h) were satisfied at the time
the structured settlement involving structured settlement payment rights was entered into, the subsequent occurrence of a structured settlement factoring
transaction shall not affect the application of the
provisions of such sections to the parties to the
structured settlement (including an assignee under a

App.106a
qualified assignment under § 130) in any taxable year.”
Thus, no adverse tax ruling is in effect regarding this
transfer.
State of Capital Markets
19. The current conditions in the financial
marketplace affecting the long term viability of annuity
issuers additionally supports the appropriateness of
Payee’s sale of the Assigned Payments. As this Court
is aware from recent press reports (see examples
attached as Exhibit 4), the disastrous effects of the
world’s precarious financial markets have negatively
impacted, and in some cases ruined, many financial
institutions, including life insurance and annuity
issuers. Few have escaped unscathed. It is for this
reason, among others, that Payee desires to sell a
portion of his future payments, as described in the
Transfer Agreement and Disclosure Statement, so as
to diversify his financial dependence.
Prayer
Based upon the foregoing, Transferee respectfully requests that the court grant this Application
and approve the transfer, inter alia, of the Assigned
Payments and other rights as set forth in the Transfer Agreement and Disclosure Statement to Transferee, its successors and assigns.

App.107a
Respectfully Submitted
/s/ L. Andy Peredes
State Bar No. 00788162
Two Post Oak Central
1980 Post Oak Blvd., Suite 1975
Houston, Texas 77056-3899
Phone: (713) 850-0700
Fax: (713) 850-8530

Attorney for Applicant RSL Funding, LLC

App.108a
TRANSFER AGREEMENT
(FOR TRANSFER OF STRUCTURED PAYMENTS)
(SEPTEMBER 24, 2013)
This TRANSFER AGREEMENT (“Transfer
Agreement” or sometimes “Agreement”) is entered
into by and between RICKEY NEWSOME (“Assignor”),
an individual; and RSL FUNDING, LLC, a Texas
limited liability company (“RSL Funding” or “Assignee”)
whose address is 1980 Post Oak Boulevard, Suite
1975, Houston, Texas 77056-3899.
a. Whereas Assignor is entitled to structured
settlement payments (collectively referred to as the
“Periodic Payments”) as a result of a structured
settlement dated on or about ________________. (the
“Settlement Agreement”).
b. Whereas Allstate insurance Company (the
“Annuity Owner” and “Structured Settlement Obligor”)
has the continuing obligation to make the Periodic
Payments to the Assignor under the Settlement
Agreement and pursuant to annuity contract No. 90506/877/878 (the “Annuity Contract”).
c. Whereas the Periodic Payments are currently
being paid by Allstate Life Insurance Company (the
“Annuity Issuer”).
d. Whereas Assignor desires to sell, assign, and
transfer to RSL Funding, and RSL Funding desires
to purchase and accept such transfer and assignment
from Assignor, the following entirety or portion of the
Periodic Payments (hereinafter the “Assigned Payments”):
Twenty-One (21) monthly payments each in
the amount of $550 beginning on December

App.109a
13, 2013 through and including August 13,
2015; thirty-three (33) monthly payments
each in the amount of $150 beginning on
September 13, 2015 through and including
May 13, 2018; and sixty-six (66) monthly payments each in the amount of $1350 beginning
on June 13, 2018 through and including
November 13, 2023.
NOW THEREFORE IN CONSIDERATION THEREOF, SUBJECT TO THE OTHER TERMS AND
CONDITIONS STATED HEREIN, RSL FUNDING
AGREES TO PAY TO ASSIGNOR, AND ASSIGNOR
AGREES TO ACCEPT AS FULL AND COMPLETE
PAYMENT FROM RSL FUNDING, THE “ASSIGNMENT PRICE” (SEE SECTION 2 BELOW).
Preliminary: A court must approve Assignor’s
sale, assignment, and transfer to RSL Funding of the
Assigned Payments before such payments can be
transferred and the Assignment Price, set forth in
Section 2 below, paid to Assignor. The Final Order
shall state that the court at least has made all findings required by applicable law, and that Annuity
Owner and Annuity Issuer are authorized and
directed to pay the Assigned Payments to RSL
Funding, its successors and/or assigns. Assignor and
RSL Funding agree to proceed in good faith to obtain
court approval of the transfer of the Assigned Payments.
IN CONSIDERATION OF THE COVENANTS,
WARRANTIES, AND REPRESENTATIONS SET
FORTH HEREIN, ASSIGNOR AND RSL FUNDING
AGREE AS FOLLOWS:

App.110a
1. Assignment. Assignor hereby sells, assigns,
and transfers to RSL Funding all of Assignor’s right,
title, and interest (including all benefits and rights
relating thereto) in end to the Assigned Payment(s).
RSL Funding hereby purchases and accepts such
assignment and transfer of the Assigned Payment(s).
2. Assigngment Price. The Assignment Price is
FIFTY-THREE THOUSAND AND NO/100 ($53,000.00)
DOLLARS, RSL Funding’s obligation to pay the
Assignment Price is subject to the terms, conditions,
and offsets described herein and, in the Disclosure
Statement. In consideration for this assignment, and
subject to these terms, conditions, and offsets, RSL
Funding shall pay Assignor the Assignment Price.
3. Payment of the Assignment Price. Payment of
the Assignment Price shall be made by RSL Funding’s
(or, as provided in paragraph 13d., its assignee’s)
check payable to Assignor and mailed to the address
shown above, unless otherwise directed in writing by
the Assignor. The parties understand that a reasonable
time may pass from the date the Final Order is
obtained until the date that Annuity Issuer and
Annuity Owner acknowledge to RSL Funding their
obligation to comply with the Final Order resulting
in the following:
a.

In the event that the parties hereto and the
Annuity Issuer and the Annuity Owner
enter into an agreement or stipulation
agreeing to this Transfer, then RSL Funding
shall promptly pay 100% of the Assignment
Price to Assignor following its receipt of a
certified copy of the Final Order; or

App.111a
b.

Otherwise, following RSL Funding’s receipt
of the certified copy of the Final Order
following the Annuity Issuer’s confirmation
that the Assigned Payments have not otherwise been assigned, transferred, sold or
hypothecated, RSL Funding shall pay 75%
of the Assignment Price to Assignor, with
the 25% balance payable promptly upon
RSL Funding’s receipt of written notice from
Annuity Issuer and Annuity Owner acknowledging their obligations under the Final
Order.

Payment of the Assignment Price is subject to all the
terms and conditions set forth herein and in the
Disclosure Statement. In particular, Sections 5, 6, 7
and 8 of this Agreement may affect RSL Funding’s
obligation to pay the Assignment Price to Assignor
where, for example, there are tax liens, judgments or
other encumbrances on the Periodic Payments.
4. Servicing Arrangement. Assignor agrees that
to the extent that payments due from the Annuity
Issuer or its affiliates must be split among various
payees (including the Payee and its assigns) RSL
Funding shall receive the full payment and in turn
will undertake to pay to Payee or Payee’s assigns any
residual amount due such person as such comes due.
5. Assignor agrees to instruct the Structured
Settlement Obligor and Annuity Issuer to deliver all
Assigned Payments to RSL Funding received after
the date this Transfer Agreement is executed by all
parties and agrees to forward all Assigned Payments
to RSL Funding Assignor receives after the execution
of this Transfer Agreement. RSL Funding shall deposit the forwarded payments into en escrow account

App.112a
and hold such forwarded payments until the court
considers the matter (hereinafter “held payments”).
After the hearing, RSL Funding shall account for the
held payments, subject to any lawful offsets and
credits, and forward the amount of the held payments
due and owing to Assignor in the usual course of
business. Payment of the Assignment Price is subject
to all the terms and conditions set forth herein in the
Disclosure Statement.
6. Representations and Warranties. Assignor
hereby makes the following unconditional representations and warranties, each of which is agreed to be
material to this Agreement and which form the basis
of RSL Funding’s obligations under this Agreement
and for whose breach Assignor agrees to unconditionally indemnify RSL Funding:
a.

Assignor’s name is Rickey Newsome with a
social security number of ________. Assignor
has never been known by or used any other
name or social security number.

b.

Assignor is the sole holder of the entire
right, title, and interest in and to the
Assigned Payments and under the above
referenced Servicing Arrangement, the
Assignor may be the sole holder of the
remainder of the difference between the
Assigned Payments and Periodic Payments
with full power and authority to enter into
and perform an of Assignor’s obligations
under this Agreement, without the need
to obtain the consent of any third party to
do so. It is Assignor’s sole responsibility
promptly to obtain any consents, waivers, or
releases needed.

App.113a
c.

Assignor is entitled to the Assigned Payments, free and clear of any right, interest,
lien, charge, encumbrance, or claim of any
other person. Assignor has not previously
conveyed, sold, assigned, pledged, or otherwise encumbered any portion of the
Assigned Payments, to any person or entity.
No other person, with or without Assignor’s
knowledge or consent, has previously conveyed, sold, assigned, pledged, or otherwise
encumbered any portion of the Assigned
Payments, to any person or entity. Assignee
and its affiliates are authorized by Assignor,
and Assignor has obtained and/or provided
all required authorizations to obtain and file
any document as Assignee deems appropriate
to effect the sale of the Assigned Payments.

* Assignor affirms that Assignor is not married ______

“Assignor’s initials, if applicable

** Assignor is married and Assignor’s Spousal Consent Form is
attached and incorporated into this Transfer Agreement RN

“Assignor’s initials applicable

d. No lawsuits or claims are pending or threatened
against Assignor or Assignor’s property end Assignor
does not know of any basis for any such lawsuit or
claim.
e. Assignor has no unpaid obligation to any
former spouse for support, maintenance or similar
obligations. Assignor has no unpaid child support or
similar payment obligation.
f. Assignor has paid all federal, state and local
taxes due and owing through and including the date
of Assignor’s signing of this Agreement (including
current estimated obligations). Assignor has no

App.114a
outstanding or unsatisfied judgments of federal, state,
or local tax or other liens against Assignor or the
Assigned Payments. Assignor has previously filed all
required income and other tax returns. Assignor has
not filed for bankruptcy within the last five (5) years.
Assignor agrees to provide all documentation in
support thereof to RSL Funding to facilitate and
expedite the court approval process.
g. Assignor is not in arrears or default on any
student loan. Assignor has not received Aid to Families with Dependent Children, food stamp benefits, or
low income energy assistance benefits.
h. Assignor has been advised by RSL Funding to
seek independent professional advice regarding this
transfer. Assignor has had the opportunity to obtain
such independent professional advice and has either
received that independent advice or freely chosen
to waive obtaining such. In entering into this Agreement and considering the ongoing consequences thereof, Assignor has not relied in any way on RSL
Funding or any person employed by or associated or
affiliated with RSL Funding or its lawyers for advice
concerning, among other things, the legal, tax or
financial consequences of the transaction contemplated
by this Agreement.
i. Assignor is an adult of sound mind, is not
acting under duress, and at the time of signing both
this Agreement and the Disclosure Statement is not
under the influence of alcohol or any other substance
or drug or impaired try any condition that would prevent Assignor from fully consenting to this Agreement as evidenced by Assignor’s signature below.
Assignor has inquired of third-parties as to other
financial options available, including solicitation of

App.115a
offers from other structured settlement purchasers,
and has concluded that entering into this Agreement
is in the best interest of the Assignor and Assignor’s
dependents so that Assignor shall work exclusively
with RSL Funding to the exclusion of all other
potential purchasers to complete the Transfer.
j. Assignor does not need or depend on the
Assigned Payments for payment of Assignor’s current
or future living expenses (food, housing, clothing,
medical care, etc.) and Assignor has other means of
providing tor Assignor’s living expenses and the
living expenses of Assignor’s dependents.
k. Assignor acknowledges and stipulates that
damages arising from Assignor’s breach of the Transfer Agreement by Assignor are fifteen percent of the
Assigned Payments or actual damages whichever is
greater; however, in the case of a breach of the right
of first refusal, the liquidated damages are fifteen
percent of the Periodic Payments transferred by
Assignor in breach of the right of first refusal.
i. The representations and warranties are true,
correct, and not misleading as of the date of Assignor’s
execution of this Agreement and Assignor has not
tailed to disclose any information to RSL Funding
which a reasonable parson might consider to be
material or relevant to a purchaser in considering
whether to enter into this Agreement. Assignor shall
not take any action (and shall refrain from taking
any action) that might cause the representations and
warranties to become untrue, incorrect, or misleading.
Further, Assignor shall immediately notify RSL Funding of any event, fact or circumstance that would
render any of the representations and warranties
untrue, incorrect, or misleading. All of Assignor’s repre-

App.116a
sentations and warranties made herein regarding the
Assigned Payments also apply in full to the Periodic
Payments except for those prior transfers disclosed
in writing to RSL Funding prior to Assignor’s execution of this Transfer Agreement. The foregoing
representations and warranties are made by Assignor
with the full knowledge and expectation that RSL
Funding is placing complete reliance thereon.
7. Covenants: Conditions Precedent to RSL Funding’s Obligations. Assignor covenants that each of the
representations and warranties made herein continue to be true as and of the date(s) of payment of
the Assignment Price by RSL Funding. Except as
may be expressly waived in writing by RSL Funding,
RSL Funding’s obligation to pay all or any portion of
the Assignment Price is subject to: (i) the representations and warranties made herein being true when
made as and of the date(s) the Assignment Price is
paid; and (ii) RSL Funding having received the
approval of a court for the sale and assignment contemplated in this Agreement. Assignor acknowledges
that RSL Funding has no obligation to pay Assignor
until Assignee obtains the Final Order. Additionally,
Assignee’s obligations to pay the Assignment Price
hereunder are subject to the receipt and approval by
Assignee of all documentation related to: (i) the Periodic Payment (e.g., the annuity contract, the settlement agreement and the related court order); and (ii)
any prior transfer by Assignor of any Periodic Payments.
8. Agreed Offsets to Assignment Price
a. Assignment Price Eeduction. The Assignment
Price shall be reduced by any legal/attorneys’ fees set

App.117a
forth in the Disclosure Statement and by any
Assigned Payments received by Assignor.
b. Certain Debts Paid. If Assignor owes back
taxes, past due child support or has garnishments,
recorded judgments or liens or similar encumbrances,
RSL Funding shall determine which debts, claims, or
liabilities must be paid at closing. RSL Funding may,
in its sole discretion, pay those debts for Assignor’s
account, and deduct the amounts from the Assignment Price. In order to obtain full right, title and
interest in the Assigned Payments, RSL Funding
may pay any amounts necessary to discharge any
liens or other claims adverse to the Assigned Payments, whether or not such adverse claims were disclosed by Assignor and regardless of the nature of the
claim. Upon written notice to Assignor of payment of
such an adverse claim, the Assignment Price shall be
reduced by such payment. In the event that any
reduction of or obligation effecting the Assigned Payments arises after the Purchase Price is paid to
Assignor, Assignor shall indemnify RSL Funding for
any such amounts paid or payable by RSL Funding
or which result in a reduction of the Assigned Payments received by RSL Funding.
c. Other Possible Deductions from the Assignment
Price. If some of the Assigned Payments are paid or
payable to Assignor or third-parties (and/or will not
ultimately be paid to RSL Funding or its successors
or assigns) before or after the Assignment Price is
paid, the Assignment Price shall be reduced “dollar
for dollar” (that is, without time value adjustment)
for the payments to Assignor and/or third-parties
and/or which RSL Funding will not be receiving. As
well, if any advances are made to Assignor by RSL

App.118a
Funding, such advances similarly shall be deducted
from the amount due Assignor hereunder also on a
“dollar for dollar” basis plus any accrued interest due
thereon.
d. “Holdbacks” While Address Change is Processed. After being notified of the Final Order, it may
take some time for the Annuity Issuer to process the
change of address. If the Assigned Payments include
monthly payments that are scheduled to be paid
within three months of the issuance of the Final
Order, RSL Funding will withhold a portion of the
Assignment Price equal to three monthly payments
until such time as the Annuity Issuer actually begins
to redirect payments to RSL Funding pursuant to the
Final Order.
e. Misrouted Payments. Even after a Final
Order, an Assigned Payment may be misrouted or
mislabeled by Annuity Issuer. In the event that
Assigned Payments are instead sent to Assignor,
Assignor agrees to hold these payments in trust for
RSL Funding and immediately turn over these
Assigned Payments to RSL Funding. Similarly, in
the event that Assigned Payments are sent to RSL
Funding but made payable to Assignor, Assignor
hereby grants to RSL Funding an irrevocable limited
power of attorney authorizing RSL Funding to cash
any such checks and deposit them to RSL Funding’s
collection account.
9. Security Agreement. To secure the prompt
and complete payment, performance end observance
of all of the obligations of Assignor under this Transfer Agreement and regardless of whether such transfer and assignment is consummated and in furtherance of the right of first refusal set forth in this

App.119a
Agreement, Assignor hereby grants, assigns, conveys,
mortgages, pledges, hypothecates and transfers to
RSL Funding, a security interest (lien) upon all of
Assignor’s right, title and interest in, to and under all
the Periodic Payments (hereinafter the “Collateral”),
to secure payment of the Assigned Payments to RSL
Funding and Assignor’s other obligations hereunder.
Additionally, Assignor hereby irrevocably authorizes
RSL Funding at any time and from time to time to
file in any filing office in any jurisdiction any initial
financing statements and amendments thereto covering
payments due from the Annuity Issuer to secure RSL
Funding’s rights hereunder and containing any other
information required by Article 9 of the Uniform
Commercial Code or its equivalent for the filing
office’s acceptance of any financing statement or amendment. This Agreement shall function as a security
agreement. RSL Funding is authorized to direct
Annuity issuer and/or Settlement Obligor to forward
any and all of the Assigned Payments directly to RSL
Funding in furtherance of this Agreement.
10. Power of Attorney. Assignor hereby grants
to RSL Funding an Irrevocable Power of Attorney
with full powers of substitution to do all acts and things
that Assignor might do regarding the Assigned
Payments and any and all rights Assignor has under
the Settlement Agreement, including, without
limitation, the power to endorse checks, drafts or
other instruments, the power to alter, edit and change
payment instructions and/or beneficiary designation
and any other act which, in the sole discretion of RSL
Funding as Assignor’s Attorney-in-Fact, is necessary
or expedient for RSL Funding to obtain all of the
benefit of the bargain contemplated by this Agreement.

App.120a
This power of attorney is coupled with an interest
end shalt survive Assignor’s death or disability.
11. Further Assurances. Assignor shall fully
cooperate with RSL Funding, including making any
court appearances as reasonably requested by RSL
Funding in obtaining the court order and/or acknowledgment referred to above and in the taking of or
performing any and all acts necessary to facilitate
the objectives of this Agreement. Assignor shall execute
any additional documents as RSL Funding may reasonably request. Assignor shall immediately endorse
and forward to RSL Funding, as applicable, any
Assigned Payment which may be made out to Assignor
or which Assignor receives.
12. In consideration of the Transfer Agreement’s
execution, Assignor hereby grants and conveys to RSL
Funding a ten (10) day right of first refusal beginning
upon RSL Funding’s receiving actual written notification of an offer to purchase or otherwise acquire any
Periodic Payments, as follows: If Assignor receives an
oral or a written offer to sell, assign, borrow against,
pledge or otherwise encumber any Periodic Payments
and Assignor desires to enter into a transaction
involving the sale, assignment, borrowing against,
pledging, or other encumbrance thereof, Assignor agrees
to immediately notify RSL Funding in writing: (a)
that Assignor has received an offer; and (b) describing
in detail all terms of said offer along with providing
all writings evidencing such. Assignor agrees to
direct any other purchaser to directly pay over to
RSL Funding fifteen percent of the amount of Periodic Payments transferred by Assignor to a person
In breach of this paragraph. See also the Disclosure
Statement.

App.121a
13. Other Provisions.
a. Choice of Law Arbitration: Waiver of Jury
Trial. Disputes under this Agreement of any nature
whatsoever including but not limited to those sounding in constitutional, statutory, or common law theories
as to the performance of any obligations, the satisfaction of any rights, and/or the enforceability hereof,
including any claims that the Assignor has breached
this Agreement, shall be resolved through demand by
any interested party to arbitrate the dispute under
the laws of Assignee’s domicile to the maximum extent possible (including the Federal Arbitration Act
which shall be controlling) and shall submit the same
to a neutral arbitration association (including but not
limited to Conflict Resolution Solutions, PLLC of
Houston) or arbitrator for resolution pursuant to its
single arbitrator, expedited rules. Notwithstanding
anything else to the contrary herein or elsewhere,
the arbitrator shall award attorneys’ fees and costs
against the breaching, defaulting or repudiating party.
If the first arbitration organization or arbitrator
which receives a written demand for arbitration of
the dispute from any interested party does not complete
the arbitration to finality within four months of the
written demand, any interested party then may file a
written demand for arbitration of the dispute with
another neutral arbitration association or arbitrator,
with the prior arbitration association or arbitrator
then being immediately divested of jurisdiction, subject to a decision being rendered by the replacement
arbitration association within four months of the
written demand being filed with the replacement
arbitration group. The arbitration decision shall be
final and binding in all respects and shall be non-

App.122a
appealable. Any person may have a court of competent
jurisdiction enter into its record the findings of such
arbitrators for all purposes, including for the enforcement of the award. In any event, the parties to this
Agreement hereby waive the right to trial by jury in
any action or proceeding instituted with respect to
this Agreement. The aforementioned provisions contained in this paragraph shall be effective notwithstanding any actions that may take place after the
execution of this Agreement, and regardless of
whether such transfer and assignment is consummated. The parties hereto agree that the issue of
arbitrability shall likewise be decided by the arbitrator, and not by any other person. That is, the
question of whether a dispute itself is subject to arbitration shall be decided solely by the arbitrator and
not, for example by any court. In so doing the intent
of the parties is to divest any and all courts of jurisdiction in disputes involving the parties, except for
the confirmation of the award and enforcement
thereof.
b. Priority of Periodic Payments. To the extent
that, after the date hereof, the Annuity Issuer or the
Annuity Owner is placed in receivership, rehabilitation, liquidation, or is subject to any other proceeding
or action of any kind whatsoever where the Periodic
Payments are reduced, delayed or otherwise impaired,
Assignor agrees to and upon entry of an order of
transfer shall be deemed to subordinate Assignor’s
rights to receive any Periodic Payments not included
in the Assigned Payments, so that (i) any reduction,
delay or impairment in Periodic Payments is first
applied against the Periodic Payments not included
in the Assigned Payments, so as to leave the

App.123a
Assigned Payments whole and unaffected by any
such reduction, delay or impairment; (ii) any Periodic
Payments made after a reduction, delay or impairment has occurred are first applied to the Assigned
Payments; and (iii) any insurance fund benefit or
other similar payment will be applied in the following
order: First, to the Assigned Payments until the
Assigned Payments have been made whole and current;
Second, any remaining balance is then applied to
make whole the holder of the Assigned Payments as
to Assigned Payments which are not yet due and
payable, but which may possibly be delayed, reduced,
or impaired; Third, any remaining balance is then
applied to make whole and current the Periodic Payments which are not included in the Assigned Payments; Fourth, any remaining balance is then
applied with respect to any unpaid, but not yet due,
Periodic Payments.
c. Counterparts; Headings; Recitals. This Agreement may be executed in multiple counterparts as
originals or as faxes, each of which shall be deemed
an original and all of which together when executed
by all parties below shall constitute a single instrument.
The Agreement’s headings are for reference only and
shall not affect in any way the meaning or interpretation of this Agreement. The recitals herein shall be
construed as Assignor’s representations and warranties.
d. Effect; Severability; Amendment; Waiver;
Assignment: Other. This Agreement shall be binding
upon and shall inure to the benefit of the parties
hereto and their respective successors, heirs, legal
representatives and permitted assigns. If any provision of this Agreement is found to be invalid or

App.124a
unenforceable, the validity or enforceability of any
other provision of this Agreement shall not be affected
thereby. This Agreement may not be amended or
modified, or any provision deemed waived, except by
written instrument signed by all of the parties hereto, and as to RSL Funding, only with the signature of
its Chief Executive Officer. The waiver or modification by a party of performance or breach of any provision of this Agreement shall not operate or be construed as a waiver of any subsequent or other performance or breach thereof, RSL Funding may assign
the right to receive the Assigned Payments to all or
any portion of its right, title, and interest in and to
this Agreement, the Settlement Agreement, the
Annuity, and the Assigned Payments without the
consent of any other person. If and when RSL
Funding assigns the right to receive the Assigned
Payments to RSL Funding’s assignee, the references
herein to the right to receive the Assigned Payments
only shall be understood to mean RSL Funding’s
assignee.
e. Notices. All notices, demands, and other
communications required or permitted hereunder
shall be made in writing and shall be effective upon
actual or constructive receipt at the address shown
above or otherwise for the parties,
f. No Rule of Construction; Entire Agreement;
Independent Representation. The parties hereto have
participated in negotiating arid drafting this Agreement, and no rule of construction shall apply to this
Agreement which construes any language, whether
ambiguous, unclear, or otherwise, in favor of either
party. This Agreement constitutes the entire agreement
and understanding of the parties with respect to the

App.125a
matters and transactions contemplated hereby and
supersedes any and all prior agreements end understandings with respect thereto. All prior agreements
of the parties, whether written or oral, have been
merged into and incorporated herein. No statements
have been made, or relied upon, by either party
except those set forth in this Agreement. This Agreement shall take effect on the date on which it is last
executed by either party. ASSIGNOR SHALL HAVE
THE RIGHT TO CANCEL THIS AGREEMENT
WITHIN THREE (3) BUSINESS DAYS OF ASSIGNOR’S EXECUTION.
IN WITNESS WHEREOF, this Agreement is
last executed the 24th day of Sept., 2013
ASSIGNOR:
/s/ Rickey Newsome
RSL FUNDING, LLC,
a Texas limited liability company
By:
/s/ Stewart A.-Feldman
CEO

App.126a
RELEVANT STATUTES
PORTIONS OF FEDERAL ARBITRATION ACT
● 9 U.S.C. § 2
Validity, Irrevocability, and Enforcement of Agreements to Arbitrate
A written provision in any maritime transaction
or a contract evidencing a transaction involving
commerce to settle by arbitration a controversy
thereafter arising out of such contract or transaction, or the refusal to perform the whole or
any part thereof, or an agreement in writing to
submit to arbitration an existing controversy arising out of such a contract, transaction, or
refusal, shall be valid, irrevocable, and enforceable,
save upon such grounds as exist at law or in
equity for the revocation of any contract.
● 9 U.S.C. § 3
Stay of Proceedings Where Issue Therein Referable to Arbitration
If any suit or proceeding be brought in any of the
courts of the United States upon any issue
referable to arbitration under an agreement in
writing for such arbitration, the court in which
such suit is pending, upon being satisfied that
the issue involved in such suit or proceeding is
referable to arbitration under such an agreement, shall on application of one of the parties
stay the trial of the action until such arbitration
has been had in accordance with the terms of the
agreement, providing the applicant for the stay
is not in default in proceeding with such arbitration.

App.127a
● 9 U.S.C. § 4
Failure to Arbitrate Under Agreement; Petition to
United States Court Having Jurisdiction for Order
to Compel Arbitration; Notice and Service Thereof;
Hearing and Determination
A party aggrieved by the alleged failure, neglect,
or refusal of another to arbitrate under a written
agreement for arbitration may petition any
United States district court which, save for such
agreement, would have jurisdiction under Title
28 [28 USCS §§ 1 et seq.], in a civil action or in
admiralty of the subject matter of a suit arising
out of the controversy between the parties, for
an order directing that such arbitration proceed
in the manner provided for in such agreement.
Five days’ notice in writing of such application
shall be served upon the party in default.
Service thereof shall be made in the manner
provided by the Federal Rules of Civil Procedure
[USCS Rules of Civil Procedure]. The court shall
hear the parties, and upon being satisfied that
the making of the agreement for arbitration or
the failure to comply therewith is not in issue,
the court shall make an order directing the
parties to proceed to arbitration in accordance
with the terms of the agreement. The hearing
and proceedings, under such agreement, shall be
within the district in which the petition for an
order directing such arbitration is filed. If the
making of the arbitration agreement or the
failure, neglect, or refusal to perform the same
be in issue, the court shall proceed summarily to
the trial thereof. If no jury trial be demanded by
the party alleged to be in default, or if the

App.128a
matter in dispute is within admiralty jurisdiction, the court shall hear and determine such
issue. Where such an issue is raised, the party
alleged to be in default may, except in cases of
admiralty, on or before the return day of the
notice of application, demand a jury trial of such
issue, and upon such demand the court shall
make an order referring the issue or issues to a
jury in the manner provided by the Federal
Rules of Civil Procedure [USCS Rules of Civil
Procedure], or may specially call a jury for that
purpose. If the jury find that no agreement in
writing for arbitration was made or that there is
no default in proceeding thereunder, the proceeding shall be dismissed. If the jury find that an
agreement for arbitration was made in writing
and that there is a default in proceeding thereunder, the court shall make an order summarily
directing the parties to proceed with the arbitration in accordance with the terms thereof.
● 9 U.S.C. § 16
Appeals
(a) An appeal may be taken from(1) an order—
(A) refusing a stay of any action under
section 3 of this title [9 USCS § 3],
(B) denying a petition under section 4 of
this title [9 USCS § 4] to order arbitration
to proceed,
(C) denying an application under section
206 of this title [9 USCS § 206] to compel
arbitration,

App.129a
(D) confirming or denying confirmation of
an award or partial award, or
(E) modifying, correcting, or vacating an
award;
(2) an interlocutory order granting, continuing,
or modifying an injunction against an
arbitration that is subject to this title; or
(3) a final decision with respect to
arbitration that is subject to this title.

an

(b) Except as otherwise provided in section
1292(b) of title 28, an appeal may not be taken
from an interlocutory order(1) granting a stay of any action under section
3 of this title [9 USCS § 3];
(2) directing arbitration to proceed under section
4 of this title [9 USCS § 4];
(3) compelling arbitration under section 206 of
this title [9 USCS § 206]; or
(4) refusing to enjoin an arbitration that is
subject to this title.
INTERNAL REVENUE CODE, 26 U.S.C. § 5891
STRUCTURED SETTLEMENT FACTORING TRANSACTIONS
(a) Imposition of tax. There is hereby imposed
on any person who acquires directly or indirectly
structured settlement payment rights in a structured settlement factoring transaction a tax
equal to 40 percent of the factoring discount as
determined under subsection (c)(4) with respect to
such factoring transaction.
(b) Exception for certain approved transactions.

App.130a
(1) In general. The tax under subsection (a) shall
not apply in the case of a structured settlement factoring transaction in which the
transfer of structured settlement payment
rights is approved in advance in a qualified
order.
(2) Qualified order. For purposes of this section,
the term “qualified order” means a final
order, judgment, or decree which—
(A) finds that the transfer described in
paragraph (1)—
(i)

does not contravene any Federal or
State statute or the order of any
court or responsible administrative
authority, and

(ii) is in the best interest of the payee,
taking into account the welfare and
support of the payee’s dependents,
and
(B) is issued—
(i)

under the authority of an applicable
State statute by an applicable State
court, or

(ii) by the responsible administrative
authority (if any) which has exclusive jurisdiction over the underlying action or proceeding which was
resolved by means of the structured
settlement.
(3) Applicable State statute. For purposes of this
section, the term “applicable State statute”

App.131a
means a statute providing for the entry of
an order, judgment, or decree described in
paragraph (2)(A) which is enacted by—
(A) the State in which the payee of the
structured settlement is domiciled, or
(B) if there is no statute described in subparagraph (A), the State in which either
the party to the structured settlement
(including an assignee under a qualified
assignment under section 130 [26 U.S.C.
§ 130]) or the person issuing the funding
asset for the structured settlement is
domiciled or has its principal place of
business.
(4) Applicable State court. For purposes of this
section—
(A) In general. The term “applicable State
court” means, with respect to any applicable State statute, a court of the State
which enacted such statute.
(B) Special rule. In the case of an applicable
State statute described in paragraph
(3)(B), such term also includes a court
of the State in which the payee of the
structured settlement is domiciled.
(5) Qualified order dispositive. A qualified order
shall be treated as dispositive for purposes
of the exception under this subsection.
(c) Definitions. For purposes of this section—
(1) Structured settlement. The term “structured
settlement” means an arrangement—

App.132a
(A) which is established by—
(i)

suit or agreement for the periodic
payment of damages excludable from
the gross income of the recipient
under section 104(a)(2) [26 U.S.C.
§ 104(a)(2)], or

(ii) agreement for the periodic payment
of compensation under any workers’
compensation law excludable from
the gross income of the recipient
under section 104(a)(1) [26 U.S.C.
§ 104(a)(1)], and
(B) under which the periodic payments are—
(i)

of the character described in subparagraphs (A) and (B) of section
130(c)(2) [26 U.S.C. § 130(c)(2)], and

(ii) payable by a person who is a party
to the suit or agreement or to the
workers’ compensation claim or by a
person who has assumed the liability
for such periodic payments under a
qualified assignment in accordance
with section 130 [26 U.S.C. § 130].
(2) Structured settlement payment rights. The
term “structured settlement payment rights”
means rights to receive payments under a
structured settlement.
(3) Structured settlement factoring transaction.
(A) In general. The term “structured settlement factoring transaction” means a
transfer of structured settlement pay-

App.133a
ment rights (including portions of structured settlement payments) made for
consideration by means of sale, assignment, pledge, or other form of encumbrance or alienation for consideration.
(B) Exception. Such term shall not include—
(i)

the creation or perfection of a security interest in structured settlement
payment rights under a blanket
security agreement entered into with
an insured depository institution in
the absence of any action to redirect
the structured settlement payments
to such institution (or agent or
successor thereof) or otherwise to
enforce such blanket security interest as against the structured settlement payment rights, or

(ii) a subsequent transfer of structured
settlement payment rights acquired
in a structured settlement factoring
transaction.
(4) Factoring discount. The term “factoring discount” means an amount equal to the excess
of—
(A) the aggregate undiscounted amount of
structured settlement payments being
acquired in the structured settlement
factoring transaction, over
(B) the total amount actually paid by the
acquirer to the person from whom such

App.134a
structured settlement payments are
acquired.
(5) Responsible administrative authority. The
term “responsible administrative authority”
means the administrative authority which
had jurisdiction over the underlying action
or proceeding which was resolved by means
of the structured settlement.
(6) State. The term “State” includes the Commonwealth of Puerto Rico and any possession of the United States.
(d) Coordination with other provisions.
(1) In general. If the applicable requirements of
sections 72, 104(a)(1), 104(a)(2), 130, and
461(h) [26 U.S.C. §§ 72, 104(a)(1), 104(a)(2),
130, and 461(h)] were satisfied at the time
the structured settlement involving structured
settlement payment rights was entered into,
the subsequent occurrence of a structured
settlement factoring transaction shall not
affect the application of the provisions of such
sections to the parties to the structured
settlement (including an assignee under a
qualified assignment under section 130 [26
U.S.C. § 130]) in any taxable year.
(2) No withholding of tax. The provisions of
section 3405 [26 U.S.C. § 3405] regarding
withholding of tax shall not apply to the
person making the payments in the event of
a structured settlement factoring transaction.

App.135a
TEXAS STRUCTURED SETTLEMENT PROTECTION ACT
● Sec. 141.001. Short Title
This chapter may be cited as the Structured
Settlement Protection Act.
Added by Acts 2001, 77th Leg., ch. 96, § 1, eff.
Sept. 1, 2001.
● Sec. 141.002. Definitions
In this chapter:
(1) ‘Annuity issuer’ means an insurer that has
issued a contract to fund periodic payments under
a structured settlement.
(2) ‘Court’ means:
(A) the court of original jurisdiction that authorized or approved a structured settlement; or
(B) if the court that authorized or approved the
structured settlement no longer has jurisdiction to approve a transfer of payment rights
under the structured settlement under this
chapter, a statutory county court, a statutory probate court, or a district court located
in the county in which the payee resides.
(3) ‘Dependents’ includes a payee’s spouse, minor
children, and all other persons for whom the payee
is legally obligated to provide support, including
alimony.
(4) ‘Discounted present value’ means the present
value of future payments determined by discounting the payments to the present using the most
recently published Applicable Federal Rate for
determining the present value of an annuity, as

App.136a
issued by the United States Internal Revenue
Service.
(5) ‘Gross advance amount’ means the sum payable to the payee or for the payee’s account as
consideration for a transfer of structured settlement payment rights before any reductions for
transfer expenses or other deductions to be made
from the consideration.
(6) ‘Independent professional advice’ means
advice of an attorney, certified public accountant,
actuary, or other licensed professional adviser.
(7) ‘Interested party’ means, with respect to any
structured settlement:
(A) the payee;
(B) any beneficiary irrevocably designated under
the annuity contract to receive payments
following the payee’s death;
(C) the annuity issuer;
(D) the structured settlement obligor; and
(E) any other party that has continuing rights or
obligations under the structured settlement.
(8) ‘Net advance amount’ means the gross
advance amount less the aggregate amount of the
actual and estimated transfer expenses required to
be disclosed under Section 141.003(5).
(9) ‘Payee’ means an individual who is receiving
tax-free payments under a structured settlement
and proposes to transfer payment rights under the
structured settlement.

App.137a
(10) ‘Periodic payments’ includes both recurring
payments and scheduled future lump-sum payments.
(11) Qualified assignment agreement’ means an
agreement providing for a qualified assignment
within the meaning of Section 130, Internal Revenue Code of 1986 (26 U.S.C. Section 130), as
amended.
(12) ‘Settled claim’ means the original tort claim
or workers’ compensation claim resolved by a
structured settlement.
(13) ‘Structured settlement’ means an arrangement for periodic payment of damages for personal
injuries or sickness established by settlement or
judgment in resolution of a tort claim or for periodic
payments in settlement of a workers’ compensation claim.
(14) ‘Structured settlement agreement’ means the
agreement, judgment, stipulation, or release
embodying the terms of a structured settlement.
(15) ‘Structured settlement obligor’ means, with
respect to any structured settlement, the party that
has the continuing obligation to make periodic
payments to the payee under a structured settlement agreement or a qualified assignment agreement.
(16) ‘Structured settlement payment rights’ means
rights to receive periodic payments under a structured settlement, whether from the structured
settlement obligor or the annuity issuer, if:
(A) the payee is domiciled in or the domicile or
principal place of business of the structured

App.138a
settlement obligor or the annuity issuer is
located in this state;
(B) the structured settlement agreement was
authorized or approved by a court located in
this state; or
(C) the structured settlement agreement is
expressly governed by the laws of this state.
(17) ‘Terms of the structured settlement’ include,
with respect to any structured settlement, the
terms of the structured settlement agreement, the
annuity contract, any qualified assignment agreement, and any order or other approval of the court.
(18) ‘Transfer’ means any sale, assignment, pledge,
hypothecation, or other alienation or encumbrance
of structured settlement payment rights made by
a payee for consideration, except that the term does
not include the creation or perfection of a security
interest in structured settlement payment rights
under a blanket security agreement entered into
with an insured depository institution, in the
absence of any action to redirect the structured
settlement payments to the insured depository
institution, or its agent or successor in interest,
or to enforce the blanket security interest against
the structured settlement payment rights.
(19) ‘Transfer agreement’ means the agreement
providing for a transfer of structured settlement
payment rights.
(20) ‘Transfer expenses’ means all the expenses
of a transfer that are required under the transfer
agreement to be paid by the payee or deducted from
the gross advance amount, including court filing

App.139a
fees, attorney’s fees, escrow fees, lien recording
fees, judgment and lien search fees, finders’ fees,
commissions, and other payments to a broker or
other intermediary, except that the term does not
include preexisting obligations of the payee payable
for the payee’s account from the proceeds of a
transfer.
(21) ‘Transferee’ means a party acquiring or proposing to acquire structured settlement payment
rights through a transfer.
Added by Acts 2001, 77th Leg., ch. 96, § 1, eff.
Sept. 1, 2001. Amended by Acts 2003, 78th Leg., ch.
578, § 1, eff. Sept. 1, 2003.
● Sec. 141.003. Required Disclosures to Payee
At least three days before the date on which the
payee signs a transfer agreement, the transferee
shall provide to the payee a separate disclosure
statement, in bold type at least 14 points in size,
that states:
(1) the amounts and due dates of the structured
settlement payments to be transferred;
(2) the aggregate amount of the payments;
(3) the discounted present value of the payments
to be transferred, which shall be identified
as the ‘calculation of current value of the
transferred structured settlement payments
under federal standards for valuing annuities,’
and the amount of the Applicable Federal
Rate used in calculating the discounted present value;
(4) the gross advance amount;

App.140a
(5) an itemized listing of all applicable transfer
expenses, other than attorney’s fees and
related disbursements payable in connection
with the transferee’s application for approval
of the transfer, and the transferee’s best
estimate of the amount of those expenses;
(6) the net advance amount;
(7) the amount of any penalties or liquidated
damages payable by the payee in the event
of any breach of the transfer agreement by
the payee; and
(8) a statement that the payee has the right to
cancel the transfer agreement, without
penalty or further obligation, not later than
the third business day after the date the
agreement is signed by the payee.
Added by Acts 2001, 77th Leg., ch. 96, § 1, eff.
Sept. 1, 2001.
● Sec. 141.004. Approval of Transfers of Structured
Settlement Payment Rights
No direct or indirect transfer of structured settlement payment rights shall be effective and no
structured settlement obligor or annuity issuer
shall be required to make any payment directly or
indirectly to any transferee of structured settlement payment rights unless the transfer has been
approved in advance in a final court order based
on express findings by the court that:
(1) the transfer is in the best interest of the
payee, taking into account the welfare and
support of the payee’s dependents;

App.141a
(2) the payee has been advised in writing by the
transferee to seek independent professional
advice regarding the transfer and has either
received the advice or knowingly waived the
advice in writing; and
(3) the transfer does not contravene any applicable statute or an order of any court or other
governmental authority.
Added by Acts 2001, 77th Leg., ch. 96, § 1, eff.
Sept. 1, 2001.
● Sec. 141.005. Effects of Transfer of Structured
Settlement Payment Rights
Following a transfer of structured settlement
payment rights under this chapter:
(1) the structured settlement obligor and the
annuity issuer shall, as to all parties except
the transferee, be discharged and released
from any and all liability for the transferred
payments;
(2) the transferee shall be liable to the structured
settlement obligor and the annuity issuer:
(A) if the transfer contravenes the terms of
the structured settlement, for any taxes
incurred by the parties as a consequence
of the transfer; and
(B) for any other liabilities or costs, including
reasonable costs and attorney’s fees,
arising from compliance by the parties
with the order of the court or arising as
a consequence of the transferee’s failure
to comply with this chapter;

App.142a
(3) the transferee shall be liable to the payee:
(A) if the transfer contravenes the terms of
the structured settlement, for any taxes
incurred by the payee as a consequence
of the transfer; and
(B) for any other liabilities or costs, including
reasonable costs and attorney’s fees,
arising as a consequence of the transferee’s failure to comply with this chapter;
(4) neither the structured settlement obligor nor
the annuity issuer may be required to divide
any periodic payment between the payee and
any transferee or assignee or between two or
more transferees or assignees; and
(5) any further transfer of structured settlement payment rights by the payee may be
made only after compliance with all of the
requirements of this chapter.
Added by Acts 2001, 77th Leg., ch. 96, § 1, eff.
Sept. 1, 2001.
● Sec. 141.006. Procedure for Approval of Transfers
(a) An application under this chapter for approval
of a transfer of structured settlement payment
rights shall be made by the transferee and shall be
brought in the court.
(b) At least 20 days before the date of the scheduled hearing on any application for approval of a
transfer of structured settlement payment rights
under Section 141.004, the transferee shall file
with the court and serve on all interested parties

App.143a
a notice of the proposed transfer and the application for authorization, including with the notice:
(1) a copy of the transferee’s application;
(2) a copy of the transfer agreement;
(3) a copy of the disclosure statement required
under Section 141.003;
(4) a listing of each of the payee’s dependents,
together with each dependent’s age;
(5) notice that any interested party is entitled
to support, oppose, or otherwise respond to
the transferee’s application, either in person
or by counsel, by submitting written comments to the court or by participating in the
hearing; and
(6) notice of the time and place of the hearing
and notification of the manner in which and
the time by which written responses to the
application must be filed to be considered by
the court.
(c) Written responses to the application under
Subsection (b)(6) must be filed on or after the 15th
day after the date the transferee’s notice is served.
(d) If the application under this chapter for
approval of a transfer of structured settlement
payment rights includes a written request by the
payee to conceal from public inspection the personally identifiable information of the payee and
the court and each interested party required to
receive notice under Subsection (b) receive complete, unredacted copies of the application, other

App.144a
pleadings, and any order in the time provided by
Subsection (b), as applicable:
(1) in any application, other pleadings, or any
order filed or submitted, the court shall permit
the full redaction of the name of the payee,
the address of the payee, and other information that could reasonably be used to determine the identity or address of the payee,
including the names of dependents, family
members, and beneficiaries; and
(2) with respect to any order issued approving
or denying the transfer of structured settlement payment rights:
(A) a copy of the order, with the information
described by Subdivision (1) redacted,
shall be filed as part of the public record;
(B) at the same time as the filing under
Paragraph (A), an unredacted copy of
the order shall be issued under seal
and shall be provided to the transferee
and each interested party entitled to
notice under Subsection (b); and
(C) not earlier than six months after the
date the order is issued, the court on its
own initiative may, or on the motion of
any person including a member of the
general public shall, unseal the unredacted order and make the order part
of the public record.
(e) Except as provided by this subsection, Rule
76a, Texas Rules of Civil Procedure, applies to all
court proceedings and filings under this chapter.

App.145a
A party is not required to comply with that rule in
order to redact the payee’s personally identifiable
information under Subsection (d)(1) or for the
purpose of issuing an unredacted copy of the order
under seal under Subsection (d)(2).
Enacted by Acts 2001, 77th Leg., ch. 96 (S.B.
277), § 1, effective September 1, 2001; am. Acts
2017, 85th Leg., ch. HB3356 (H.B. 3356), § 1,
effective June 15, 2017.
● Sec. 141.007. General Provisions; Construction
(a) The provisions of this chapter may not be
waived by any payee.
(b) Any transfer agreement entered into by a
payee who resides in this state must provide that
disputes under the transfer agreement, including
any claim that the payee has breached the agreement, shall be determined in and under the laws
of this state. The transfer agreement may not
authorize the transferee or any other party to
confess judgment or consent to entry of judgment
against the payee.
(c) Transfer of structured settlement payment
rights may not extend to any payments that are
life-contingent unless, prior to the date on which
the payee signs the transfer agreement, the transferee has established and agreed to maintain procedures reasonably satisfactory to the structured
settlement obligor and the annuity issuer for:
(1) periodically confirming the payee’s survival;
and

App.146a
(2) giving the structured settlement obligor and
the annuity issuer prompt written notice in
the event of the payee’s death.
(d) A payee who proposes to make a transfer of
structured settlement payment rights may not
incur any penalty, forfeit any application fee or
other payment, or otherwise incur any liability to
the proposed transferee or any assignee based on
any failure of the transfer to satisfy the conditions
of this chapter.
(e) Nothing contained in this chapter may be
construed to authorize any transfer of structured
settlement payment rights in contravention of any
law or to imply that any transfer under a transfer
agreement entered into before the effective date of
this chapter is valid or invalid.
(f) Compliance with the requirements in Section
141.003 and fulfillment of the conditions in Section
141.004 are solely the responsibility of the transferee in any transfer of structured settlement payment rights, and neither the structured settlement
obligor nor the annuity issuer bear any responsibility for, or any liability arising from, noncompliance with the requirements or failure to fulfill
the conditions.
Added by Acts 2001, 77th Leg., ch. 96, § 1, eff.
Sept. 1, 2001.

